                                     Semiannual
                                      Report to
                                      Congress
                                    April 1, 2006 – September 30, 2006




OFFICE OF INSPECTOR GENERAL
U.S. Department of Transportation
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page I




                          S emiannual 

                            R eport to 

                            C ongress

                         April 1, 2006–September 30, 2006





         Office of Inspector General ■ U.S. Department of Transportation
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page II
FINAL SAR 12-21-06.qxd           1/10/2007         10:19 AM       Page III




                                      contents

       From the Deputy Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page v

       Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1

             Aviation and Special Program Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1

             Financial and Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 3

             Surface and Maritime Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 6

             Competition and Economic Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 8

       Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 11

             April . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 11

             May . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 14

             June . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 18

             Progress and Challenges for Moving Forward with the Next Generation Air Traffic Management System Page 22
             July . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 25

             August . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 32

             September . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 40

             Restoring the Public’s Confidence in Boston’s Central Artery/Tunnel Project . . . . . . . . . . . . . . . . . . . .Page 45
       Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 47

       Charts & Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 51

             Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 51

             Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 52

             Profile of All Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 53

             Application of Investigative Project Hours by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 53
             Status of Unresolved Investigations Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 54
             Application of Investigative Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . . .Page 55

             Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 55

             OIG Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 56

             OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . .Page 56

             OIG Reports Recommending Changes for Safety, Economy, or Efficiency                                                   . . . . . . . . . . . . . . . . . . . . .Page 57

             Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 57

             Office of Inspector General Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 58

             Other Audit Work Products . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 60

             Office of Inspector General Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 61

             Status of Unresolved Recommendations Over Six Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 62

             Application of Audit Project Hours by Operating Administration                                          . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 64

       Mission, Organization, & Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 65

       Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 69


                                                                                                                                                                                         iii
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page IV




    iv              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page V




         from the deputy 

        i n s p e c t or g e n e ra l 


       W
                      e are pleased to present the Department of Transportation Office of
                      Inspector General’s Semiannual Report to Congress for the six months
                      ending September 30, 2006.
           During this semiannual period, we issued 32 audit reports with 85 recom-
       mendations, and our investigations resulted in 69 convictions. Our work result-
       ed in more than $121 million in financial recommendations, fines, restitutions,
       civil penalties, and recoveries. We testified before Congress on 6 occasions
       including such issues as Aviation Safety, Next Generation Air Transportation
       System (before both the House and Senate), Pipeline Safety, Lower Manhattan
       Reconstruction, and Household Goods Moving Fraud. A summary of highlights
       from audits, investigations, and testimonies presented during this reporting peri-
       od can be found in this report.
           This period saw significant transitions at the Department. Secretary Mineta
       ended his tenure as the longest serving Secretary of Transportation, but his empha-
       sis on program integrity and stewardship of federal transportation dollars will have
       long-lasting effects. We look forward to working with his successor, Secretary Mary
       Peters, who accomplished significant improvements in financial management and
       program delivery during her prior tenure as FHWA Administrator. She brings a
       proven track record of leadership in management and accountability matters to the
       Department.
             Finally, we want to welcome our newly confirmed Inspector General,
       Calvin L. Scovel III, who was confirmed by the Senate on September 29, 2006
       and sworn in on October 27, 2006. Mr. Scovel will retire from the Marine Corps
       on January 1, 2007, as a Brigadier General after 29 years of service. He most
       recently served as a Senior Judge of the United States Navy-Marine Corps Court
       of Criminal Appeals. As stated by Secretary Peters at his swearing in ceremony,
       “Cal is uniquely qualified to be a strong advocate for accountability, honesty and
       integrity.” We looked forward to serving with Inspector General Scovel.
           I would also like to sincerely thank Deputy Secretary Maria Cino for her sup-
       port of the office during this period. It was truly a privilege to serve as Acting
       Inspector General during Ms. Cino’s tenure as Acting Secretary. Thanks also to
       the Department’s Secretarial officers, modal administrators and Members and
       staff of Congress for their assistance and support of the office during this transi-
       tion period.




                                                                                              v
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page VIII




    vi              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd    1/10/2007   10:19 AM    Page 1




                work planned

               and in progress


      T
                his section describes significant work projects currently underway or
                planned by the Office of Inspector General that focus on the
                Department’s Strategic Plan and its core missions of transportation
       safety and mobility. We take into account the need to support DOT’s most crit-
       ical programs and to assure that departmental resources are protected from
       fraud and waste. In addition, many of our projects arise from requests by
       Administration officials and members of Congress.
          The OIG has developed the following work plan for the period of
       October 1, 2006, through March 31, 2007.


                       AVIATION AND SPECIAL PROGRAM AUDITS
       ■ Air Carriers’ Outsourcing of Aircraft Maintenance
          Determine the type and quantity of maintenance performed by outside
       repair stations, and whether FAA is effectively monitoring air carriers’ over-
       sight of the work performed by outside repair stations and verifying whether
       safety requirements are met.

       ■ FAA’s Airport Surface Detection Equipment-Model X (ASDE-X) Program
          Determine whether FAA’s strategy for deploying ASDE-X for opera-
       tional use is cost effective, given the changes in the program’s deployment
       strategy. Determine to what extent the ASDE-X program will reduce the
       risk of ground collisions or accidents caused by runway incursions.

       ■ FAA Joint Planning and Development Office (JPDO)
         At the request of the Chairman and Ranking Member of the House
       Transportation and Infrastructure’s Aviation Subcommittee, we will determine
       (1) progress made by JPDO in aligning and leveraging research conducted by
       other Federal agencies and (2) how JPDO will shift new technologies and
       capabilities from research to prototype and introduction into the National
       Airspace System.

       ■ Controls Over FAA’s Conversion of Flight Service Stations to Contract
         Operations
         Assess whether FAA has implemented effective plans and controls to
       (1) transition flight service stations to contract operations, (2) achieve anticipat-
       ed savings, and (3) ensure that the operational needs of users continue to be met.


                                                                                    work planned and in progress   1
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM    Page 2




                                                      ■ FAA’s Actions to Address Runway Incursions at Boston Logan,

                                                         Chicago O’Hare, and Philadelphia International Airports

                                                      Assess the actions taken by FAA to (1) identify and correct the causes of
                                                   recent runway incursions experienced at Boston Logan, Chicago O’Hare, and
                                                   Philadelphia International Airports and (2) address those issues that could
                                                   affect safety system-wide.

                                                        ■ FAA’s 2006 Update to the Controller Workforce Plan
                                                          Evaluate FAA’s progress in implementing key staffing and training ele-
                                                        ments of its Controller Workforce Plan and assess the effectiveness of
                                                        other initiatives designed to increase controller productivity.

                                                        ■ FTI Transition Risks and its Impact on Air Traffic Control Operations
                                                           Assess FAA’s progress in developing an effective transition plan and
                                                        realistic master schedule, and determine if FAA is mitigating risks to air
                                                        traffic control operations by coordinating activities and validating site-
                                                        specific requirements before activating FTI service and disconnecting
                                                        existing telecommunications service.

                                                   ■ Prioritization of Airport Improvement Program Funds (AIP)
                                                      Evaluate the effectiveness of FAA’s policies and procedures for ensuring the
                                                   highest priority airport improvement projects are funded.

                                                   ■ FAA Oversight of Inactive AIP Grant Obligations
                                                      Assess the effectiveness of FAA’s policies and procedures for identifying,
                                                   reviewing, and de-obligating unneeded AIP grant obligations; and determine
                                                   the extent to which unneeded AIP grant obligations should be de-obligated
                                                   and put to better use on other projects or returned to the Aviation Trust Fund.

                                                   ■ Staffing at Certain Air Traffic Control Towers
                                                      At the request of the Ranking Member of the House Transportation and
                                                   Infrastructure Committee and the Ranking Member of the House Aviation
                                                   Subcommittee, we are reviewing controller staffing on overnight shifts at tow-
                                                   ers with radar separation responsibilities. Specifically, the Ranking Members
                                                   requested that we (1) review FAA’s August 2005 guidance requiring two con-
                                                   trollers to be on duty during midnight shifts, (2) identify how the guidance was
                                                   communicated, and (3) determine how many towers were not in compliance
                                                   with the guidance at some point between its issuance and the August 27, 2006,
                                                   Comair accident at Lexington, Kentucky.

                                                   ■ Progress and Problems with FAA’s Major Acquisitions
                                                     At the request of the Chairman and Ranking Member of the House
                                                   Aviation Subcommittee, we will follow up on our May 2005 audit report on
                                                   FAA major acquisitions and examine (1) recent changes in cost, schedule, and

    2              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 3




       expected benefits of key projects and (2) overall trends affecting FAA’s expen-
       diture of facilities and equipment funding ($2.5 billion appropriated by
       Congress for FY 2005).

       ■ Power Outages in Southern California
          At the request of a U.S. Senator from California who is a member on the
       Senate Aviation Subcommittee, we will examine the causes and FAA actions to
       address three distinct problems in Southern California: (1) a power outage at
       the Los Angeles Center that impacted more than 300 flights, (2) multiple fail-
       ures of a precision instrument landing system at Los Angeles International
       Airport (LAX), and (3) problems caused by a surface movement safety alert sys-
       tem that was disabled at LAX.

       ■ FAA Inspector Staffing
          Evaluate whether FAA has (1) developed a process to determine how many
       inspectors are needed in each location and (2) effectively utilized recently
       authorized funding to hire aviation safety inspectors where needed.

       ■ Runway Safety Areas
         Determine whether FAA is ensuring that airports with runways that do
       not meet design standards are (1) taking steps to mitigate risks where inad-
       equate runway safety areas exist and (2) effectively prioritizing the use of
       AIP and Passenger Facility Charge (PFC) funds to enhance airfield safety.

       ■ Congressional Earmarks Within DOT Programs
          At the request of the Chairman of the Senate Subcommittee on Federal
       Financial Management, Government Information, and International
       Security, we will determine (1) the total number and cost of congressional ear-
       marks within DOT programs; (2) whether oversight is conducted on earmarks
       and how this compares to the oversight conducted on other expenditures, such
       as grants and contracts; and (3) the overall impact of earmarks on advancing
       DOT’s primary mission and goals.


                    FINANCIAL AND INFORMATION TECHNOLOGY
       ■ Use of Contract Audit Services, DOT Operating Administrations
         Determine whether DOT and its Operating Administrations are obtaining
       contract audit services as necessary and in accordance with policies, procedures,
       and acquisition regulations.

       ■ Contractor Overhead and Compensation Under Grants
          Review the effectiveness and implementation of audit provisions in Section 307
       of the National Highway System Designation Act addressing audits of con-


                                                                                 work planned and in progress   3
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM    Page 4




                                                   tracts awarded by states to engineering and design firms. Procedures include
                                                   testing the allowability of compensation and other high overhead cost elements
                                                   billed by these firms.

                                                   ■ Computer Security and Controls Over the National Driver Register (NDR)
                                                      Determine whether (1) personal identification information stored in the
                                                   NDR can be accessed for unapproved use; (2) traffic violations are promptly
                                                   and accurately processed for NDR reporting; (3) an adequate contingency plan
                                                   exists to ensure business continuity; and (4) risks associated with NDR system
                                                   operations are properly assessed, tested, and mitigated to meet minimum
                                                   Government security standards.

                                                   ■ Review of Spending Priorities for the Office of the Assistant Secretary for
                                                     Administration
                                                     Determine if the Office of the Assistant Secretary for Administration (1) has
                                                   adequate support for budget requests, including funds to operate the Working
                                                   Capital Fund; (2) supports DOT operations commensurate with the office’s
                                                   mission; and (3) properly accounts for Working Capital Fund resources.

                                                   ■ Assessment of Corrective Actions To Eliminate Anti-Deficiency Act
                                                      Violations, FTA
                                                      Based on an FY 2005 Appropriations Act request, examine the adequacy
                                                   of FTA’s corrective actions for ensuring that internal control weaknesses and
                                                   accounting practices associated with Anti-Deficiency Act violations were
                                                   eliminated.

                                                   ■ Status Assessment of FAA’s Cost Accounting System
                                                      As required by FAA’s Reauthorization Act (AIR-21), perform a review of
                                                   the status of FAA’s Cost Accounting System and assess eight specific areas cov-
                                                   ering FAA’s methods for calculating and assigning costs to users and whether
                                                   those methods are reasonable.

                                                   ■ FY 2006 DOT Consolidated Financial Statements
                                                     Render an opinion on the financial statements and issue reports on internal
                                                   controls and compliance with financial related laws and regulations.

                                                   ■ Quality Control Review of FY 2006 Highway Trust Fund Financial Statements
                                                      Perform a quality control review of the audit by an independent public
                                                   accounting firm and determine if the audit was performed in accordance with
                                                   applicable auditing standards.

                                                   ■ Quality Control Review of FY 2006 FAA Financial Statements
                                                      Perform a quality control review of the audit by an independent public
                                                   accounting firm and determine if the audit was performed in accordance with
                                                   applicable auditing standards.

    4              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 5




       ■ Quality Control Review of FY 2006 FAA’s Franchise Fund Financial Statements
          Perform a quality control review of the audit by an independent public
       accounting firm and determine if the audit was performed in accordance with
       applicable auditing standards.

       ■ Quality Control Review of FY 2006 SLSDC Fund Financial Statements
          Perform a quality control review of the audit by an independent public
       accounting firm and determine if the audit was performed in accordance with
       applicable auditing standards.

       ■ Quality Control Review of FY 2006 NTSB Financial Statements
          Perform a quality control review of the audit by an independent public
       accounting firm and determine if the audit was performed in accordance with
       applicable auditing standards.

       ■ Volpe Center Network Security
         Determine if (1) Volpe information systems are properly accredited to sup-
       port business operations, (2) Volpe’s network infrastructure and connection
       entry points are adequately secured to protect the critical information assets,
       and (3) Volpe is leveraging departmental information technology resources to
       maximize cost savings.

       ■ Security and Controls Over the Pilot Medical Database
          Determine whether the confidentiality and integrity of the Pilot Medical
       Database are adequate to protect U.S.-certified pilots from wrongful disclosure
       of their personal medical information. Specifically, we will assess whether prop-
       er security is implemented to (1) ensure only authorized people can gain access
       to the information and (2) maintain the integrity (i.e., accuracy, completeness,
       and timeliness) of personal medical information processed by the system.

       ■ Review of the Effectiveness of Price Analysis
          Determine whether Operating Administrations are performing adequate
       price analysis for their procurements, particularly when multiple bids were not
       obtained for competitive solicitations or when pre-award information on con-
       tractors’ proposals was not obtained.

       ■ Oversight of FAA Franchise Fund Agreed Upon Procedures
         Perform a quality control review of KPMG’s audit of FAA Administrative
       Services Franchise Fund Balance Sheet to ensure it complies with standards.

       ■ Selected Emergency Transportation Services Contracting Lessons Learned as
         a Result of the 2005 Gulf Coast Hurricanes
         Determine whether the emergency transportation services contract modification
       was designed and administered to ensure fair and reasonable costs to the
       Government.

                                                                                 work planned and in progress   5
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM    Page 6




                                                   ■ Review of Air Traffic Control Systems Security and Contingency Planning
                                                      Assess FAA’s progress in (1) developing detailed work plans, (2) allocating
                                                   required resources, and (3) implementing a contingency plan to ensure the
                                                   operational systems security of the nation’s critical air traffic control systems
                                                   infrastructure. We will also examine progress in implementing a business con-
                                                   tinuity plan to restore essential air services in case of prolonged service disrup-
                                                   tions at en route centers.

                                                                      SURFACE AND MARITIME PROGRAMS

                                                   ■ National Highway Traffic Safety Administration’s Oversight of Alcohol-
                                                      Impaired Driving Programs
                                                      Identify the defining characteristics that constitute alcohol-related crashes;
                                                   compare the scope, direction, resources, and expenditures of programs and
                                                   activities of those states with the highest and lowest alcohol-related fatalities,
                                                   including the use of high visibility law enforcement methods; and determine
                                                   Federal resources dedicated to this effort.

                                                   ■ Opportunities for FHWA To Free Up Unneeded Funds in States Affected by
                                                      Hurricanes Katrina and Rita and Use Those Funds on Recovery Efforts
                                                      Assist FHWA in identifying funds dedicated to congressionally directed proj-
                                                   ects that are no longer needed and may, with congressional approval, be freed
                                                   up and redeployed to other projects within the same state to reduce the cost of
                                                   reconstruction.

                                                   ■ National Highway Traffic Safety Administration Oversight of State Highway
                                                     Safety Programs
                                                     Evaluate NHTSA’s management reviews of state highway safety programs
                                                   and identify best practices.

                                                   ■ Federal Transit Administration Administrative Expenses
                                                     Determine if FTA’s administrative expenditures were in compliance with the
                                                   provisions of the FY 2005 Appropriations Act.

                                                   ■ Springfield Union Station Rehabilitation Project
                                                     Determine whether the FTA’s oversight of the project was adequate.

                                                   ■ Review of Pioneer Valley Transit Authority Electric Bus Cooperative Agreement
                                                     Determine whether (1) FTA’s oversight was adequate and appropriate,
                                                   (2) indirect expenses charged to FTA were in accordance with FTA regulations,
                                                   (3) direct expenses charged to FTA were in accordance with FTA regulations,
                                                   and (4) required matching funds were secured.




    6              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 7




       ■ FTA’s Oversight of Grants to the Virginia Department of Rail and Public
          Transportation
          Determine whether (1) grant drawdowns are adequately supported and
       whether grantees are managing grant receipts in accordance with Federal
       requirements, (2) costs charged to the grants are allowable and accurate,
       (3) FTA’s oversight mechanisms adequately identify issues associated with
       the grantee’s financial and grant management, and (4) required financial
       status of grants and progress reports accurately reflect grantee’s grant activi-
       ty and are submitted timely.

       ■ Highway-Rail Grade Crossing Accident Reporting and Data Analysis
          Assess the adequacy of FRA’s oversight of railroads’ reporting of grade cross-
       ing collisions to its Railroad Accident/Incident Reporting System.

       ■ 2006 Report on Status of North American Free Trade Agreement’s Border
          Crossing Provisions
          Analyze the FMCSA's actions in response to the OIG recommendations in
       the 2005 report and update prior OIG audit analysis of FMCSA’s motor carri-
       er data on Mexican motor carriers operating in the United States.

       ■ Commercial Driver's License Information System (CDLIS) Modernization
         Program
         Determine the total amount of revenue derived by the current operator of
       the CDLIS from the fees charged for use of the system and the CDLIS-relat-
       ed expenses incurred by the current operator of the system, compare the total
       expenses to revenue received, and determine how revenues and fees should be
       addressed under the new modernization plan.

       ■ Federal Motor Vehicle Safety Standards
          Provide comments and observations on the scope and methodology of
       FMCSA’s review of Canadian and Mexican commercial motor vehicles for
       compliance with Federal safety standards. SAFETEA-LU requires that FMCSA
       determine the degree to which Canadian and Mexican motor vehicles, includ-
       ing motor carriers of passengers, currently operating or expected to operate in
       the United States, comply with the Federal standards.

       ■ Central Artery/Tunnel Monitoring — Tunnel Safety
          At the request of the Acting Secretary of Transportation and the
       Massachusetts congressional delegation, exercise independent oversight of
       activities performed by the Commonwealth of Massachusetts and the FHWA,
       including reopening activities of the Central Artery/Tunnel and the ‘stem to
       stern’ review.




                                                                                  work planned and in progress   7
FINAL SAR 12-21-06.qxd   1/10/2007      10:19 AM    Page 8




                                                                 ■ Central Artery/Tunnel Project Finance Plan
                                                                    Determine whether the Finance Plan (1) presents a cost esti-
                                                                 mate that is based on all known and reasonably expected costs,
                                                                 (2) identifies appropriate and available funding sources suffi-
                                                                 cient to meet the total estimated cost, (3) provides a project
                                                                 construction schedule that is based on all known and reason-
                                                                 ably anticipated delays, and (4) discloses other issues affecting
                                                                 the project.

                                                                 ■ FHWA Research, Development, and Technology Projects at the
                                                                     Turner-Fairbank Highway Research Center
                                                       Determine whether (1) FHWA provides effective oversight of the Center’s
                                                    research, development, and technology projects to ensure that incurred costs
                                                    are appropriate; (2) research projects are completed on time and within
                                                    budget; (3) FHWA has an effective process in place to determine whether proj-
                                                    ects should receive funding that exceeds initial budget estimates; and (4) FHWA
                                                    ensures that completed projects result in deliverables consistent with the initial
                                                    objectives.

                                                    ■ Dulles Corridor Metrorail Project
                                                      Monitor the status of the Project, including costs, funding, schedules, man-
                                                    agement, and any risks that may adversely impact its completion.

                                                    ■ Lower Manhattan Recovery Projects
                                                       Assess (1) the status of each Project, including costs, funding, schedules, and
                                                    management and (2) any risks that may adversely impact completion. In addi-
                                                    tion, as part of the monitoring effort, we will look at FTA’s Lower Manhattan
                                                    Recovery Office’s oversight of these projects and the activities of the project
                                                    management oversight contractors that are assigned to each project.

                                                                   COMPETITION AND ECONOMIC ANALYSIS
                                                    ■ Amtrak Quarterly Reports on Operational Savings
                                                      Report to the House and Senate Committees on Appropriations with esti-
                                                    mates of the savings accrued as a result of operational reforms instituted by
                                                    Amtrak.

                                                    ■ Annual Assessment of Amtrak
                                                        Evaluate and analyze Amtrak’s current financial status and its operating and
                                                    capital budget performance. We will also review Amtrak’s annual grant request,
                                                    its long term capital needs, and its revised cost allocation methodology.




    8               Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 9




       ■ Amtrak Managerial Cost Accounting System
          As required by the FY 2006 DOT Appropriations, review and
       comment to the Secretary of Transportation and the House and
       Senate Committees on Appropriations on Amtrak’s implementation
       of a managerial cost accounting system, including average and mar-
       ginal unit cost capability. Amtrak was directed by the Act to expend
       not less that $5 million on a system to improve decision making by
       Amtrak’s Board of Directors and management of the corporation.
       The Act further requires OIG to provide this review within 30 days
       of the development of the managerial cost accounting system.

       ■ Users of Air Traffic Control Services
         Determine who are the users of the components of the National Aviation
       System, what are their characteristics, and how does usage of the National
       Aviation System contribute to congestion.

       ■ Benefits of True High-Speed Rail on the Northeast Corridor
         Determine the benefits of true high-speed rail in the Northeast Corridor.

       ■ Increases in Highway Construction Costs
          Determine whether current trends in construction costs represent
       structural changes, differ regionally, and are being adequately taken
       into account in state planning processes.

       ■ Public-Private Partnerships — Innovative Financing
          Investigate the conditions under which public-private partner-
       ships prove to be beneficial to the development of transportation
       infrastructure.

       ■ Review of Amtrak Board of Directors
          Determine the efficacy of Amtrak’s Board of Directors’ roles, responsibili-
       ties, processes, and relationship to senior management.




                                                                               work planned and in progress   9
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 10




    10              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 11




                           activities


          Second Quarterly Report on Cost Savings Accrued by Amtrak

                            Operational Reforms

       April 6, 2006
           As required by Congress, we issued our second quarterly assessment of the
       savings Amtrak has achieved from operational reforms. Our first quarterly
       report, issued January 5, 2006, established an FY 2006 operating subsidy base-
       line of $586 million, whereby Amtrak’s planned operational reforms would
       result in a projected operating loss of $586 million. Our second quarter assess-
       ment found that Amtrak’s financial performance to date in FY 2006 was
       $70.3 million better than expected. However, Amtrak has achieved only a
       minor amount of savings from operational reforms not included in the
       $586 million subsidy baseline. Although it has begun to reform its food serv-
       ice provision, we reported that we have yet to see a plan projecting that Amtrak
       will achieve a near breakeven provision of food service on its trains. We also
       found that Amtrak has no plan in place to significantly restructure any of its
       long distance services. Amtrak must be more expansive and aggressive in the
       scope and pace of implementing long-term, structural operational reform if it
       is to achieve credible reductions to its required Federal operating subsidy.

       Former Employee of Engineering/Construction Firm Contracting
       with a DOT Grantee is Ordered to Pay $73,000 for Embezzlement
       April 7, 2006
          Cynthia Ransom, former office manager for the New Jersey office of
       Parsons Transportation Group, Inc. (PTG), was sentenced in U.S.
       District Court in Newark, NJ to 6 months home confinement, 3 years
       probation and ordered to pay $70,000 in restitution on charges related
       to embezzlement from a Federal grant program. PTG holds contracts
       with the New Jersey Department of Transportation (NJ-DOT), a
       FHWA grantee. Ransom admitted that, from January 2000 through
       August 2003, she embezzled $70,000 by creating bogus petty cash
       receipts for photographic film and related supplies which supported
       invoices submitted to the NJ-DOT under PTG contracts for inspection
       of bridges and tunnels. PTG has reimbursed NJ-DOT for all embezzled
       funds. The investigation was conducted jointly with the Port Authority
       of New York and New Jersey.


                                                                                          activities   11
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 12




                                                         Tennessee Engineering Company to Pay $250,000 in Civil
                                                                    Settlement of Alleged False Claims
                                                    April 17, 2006
                                                       TRC International Ltd., headquartered in Brentwood, Tennessee, agreed to
                                                    pay $250,000 to settle claims in Tennessee State Court, that it had over-billed
                                                    the state of Tennessee for labor under a $4 million contract for highway signs
                                                    inspection and maintenance in the Memphis, Tennessee area. The Federal-aid
                                                    contract ran from 1999 to 2004. An audit conducted in October 2004 by the
                                                    Tennessee State Comptroller’s office reported over-billing by the firm; the
                                                    Tennessee Attorney General’s Office agreed to allow TRC to pay the civil set-
                                                    tlement. This investigation was conducted jointly with the Tennessee Attorney
                                                    General’s Office, the FBI, and the Tennessee Bureau of Investigations.

                                                      Former Air Carrier Flight Procedures Instructor Pleads Guilty to
                                                                    Falsifying FAA Airman Certificates
                                                    April 18, 2006
                                                       Stephen Lawrence Gatlin, a former flight procedures instructor for Delta Air
                                                    Lines pled guilty in U.S. District Court in Atlanta, GA to two felony counts of
                                                    falsifying FAA Temporary Airman Certificates (TACs). Gatlin presented Delta
                                                    with two fraudulent FAA TACs. The first, certifying him as a ground instruc-
                                                    tor and the other, certifying him as a commercial airline pilot, in order to gain
                                                    and maintain employment as a flight procedures instructor. He held that posi-
                                                    tion with Delta for several months before a FAA certification review disclosed
                                                    the falsifications, and Gatlin resigned in September 2004. Our investigation
                                                    also found that Gatlin used the social security number of another individual on
                                                    one of the TACs. This was a joint investigation with the Social Security
                                                    Administration’s OIG, with assistance from the FAA’s Southern Region.

                                                     Significant Improvement in Motor Carrier Safety Since 1999 Act
                                                             but Loopholes for Repeat Violators Need Closing
                                                    April 21, 2006
                                                       We issued a report on our audit of FMCSA’s implementation of the Motor
                                                    Carrier Safety Improvement Act (MCSIA) of 1999. Our audit objectives were
                                                    to assess FMCSA’s progress in (1) implementing the OIG’s 1999 audit rec-
                                                    ommendations, (2) establishing the new entrant program, and (3) completing
                                                    MCSIA-required rulemakings. We found that FMCSA significantly improved
                                                    oversight of motor carrier safety since our 1999 audit, but needs to ensure that
                                                    repeat violators cannot escape maximum fines. We recommended that FMCSA




    12              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007    10:19 AM   Page 13




                           activities


       strengthen the repeat violator policy by enhancing controls and developing a
       procedure to count all acute and critical violations of safety regulations. We also
       made specific recommendations to improve the quality of motor carrier data,
       continue monitoring states’ progress in conducting safety audits to maintain
       timeliness and enhance effectiveness, and complete a MCSIA-required rule-
       making to combine the commercial driver’s license with the medical certificate.
       FMCSA agreed to take action to address our recommendations.

         FAA Telecommunications Infrastructure Program: FAA Needs to

           Take Steps to Improve Management Controls and Reduce

                               Schedule Risks 

       April 27, 2006
           We issued a report on FAA’s efforts to transition multiple telecommunica-
       tion networks to a single network, thereby reducing operating costs. We found
       that the FAA Telecommunications Infrastructure Program (FTI) is a high risk
       and schedule-driven program that is unlikely to meet its December 2007
       revised completion date. This is because the Program Office has yet to devel-
       op a detailed realistic master schedule or an effective transition plan. The tran-
       sition plan is critical to identifying when each site and service will be accepted,
       when services will be cut over to FTI, and when existing (legacy) services will
       be disconnected. Further, the Program Office needs to ensure better coordi-
       nation with its field offices and with the legacy contractor in order to ensure
       that service disruptions are avoided when services are transitioned to FTI. To
       increase program management controls over the FTI transition, we recom-
       mended that FAA (1) develop a realistic master schedule and an effective FTI
       transition plan that requires the FTI Program Office to coordinate with all of
       its contractors and regional offices to manage and execute the FTI transition
       and (2) determine the number of Leased Interfacility National Airspace System
       Communications System (LINCS) circuits and funding requirements to extend
       the Agency’s LINCS bridge contract for the 1 year extension or longer if nec-
       essary. FAA concurred with our recommendations and is taking a number of
       actions to increase the effectiveness of project management controls over the
       FTI program transition.




                                                                                             activities   13
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 14




                                                                 Principal Assistant Inspector General for Auditing and
                                                                         Evaluation Testifies on Pipeline Safety
                                                                April 27, 2006
                                                                   The Principal Assistant Inspector General for Auditing and
                                                                Evaluation testified before the House Subcommittee on Energy
                                                                and Air Quality regarding pipeline safety. The testimony focused
                                                                on the progress and challenges in strengthening pipeline safety,
                                                                including (1) the progress made in implementing integrity man-
                                                                agement programs for hazardous liquid and gas transmission
                                                                pipeline systems, (2) establishing an integrity management pro-
                                                                gram for gas distribution pipeline systems, and (3) the need for
                                                                clearer lines of authority to address pipeline security and respond-
                                                                ing to disasters.

                                                        Three Defendants Sentenced to Prison in Michigan Driver’s
                                                             License and Identification Document (ID) Case
                                                    May 1, 2006
                                                       Regjean Welch, a former clerk for the Michigan Secretary of State (MSOS)
                                                    was sentenced in U.S. District Court in Detroit, MI to 10 months in prison for
                                                    her part in a scheme to sell driver’s licenses and IDs. Welch, who had worked
                                                    at the Livonia MSOS office, pled guilty in December 2005 to charges of con-
                                                    spiracy in providing the fraudulent documents. She admitted to issuing tem-
                                                    porary instruction permits and operator’s licenses on at least three occasions
                                                    without requiring that the individuals take the written knowledge test and/or
                                                    provide proof of residency or valid identification. Applicants, who had been
                                                    referred to Welch by Andre Donaldson, paid $100 to $500 (split between
                                                    Welch and Donaldson) for each fraudulent document issued. On April 20,
                                                    Kimberly Murray, a former clerk for the MSOS, was sentenced to nine months
                                                    in prison for her part in a scheme to sell driver’s licenses and IDs. Murray pled
                                                    guilty in February to charges of ID fraud conspiracy. She admitted issuing IDs
                                                    or driver’s licenses to at least 10 individuals in exchange for about $300 per
                                                    document. Donaldson also pled guilty and was sentenced to 12 months in
                                                    prison on April 10, 2006. The investigation was conducted as part of an FBI
                                                    Task Force with DHS-ICE, the Michigan Department of State, and the
                                                    Michigan State Police.




    14              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 15




                          activities


       Owner of Disadvantaged Business Enterprise (DBE) is Suspended
         by Oklahoma Department of Transportation (OK-DOT) for
            Defrauding the Federal Government on a $I2 Million
                              Highway Project
       May 1, 2006
          Walter Alan Patton, owner and president of Patton Construction,
       Inc. (PCI), Tahlequah, OK, was suspended by OK-DOT from doing
       business with the Oklahoma government and was issued a notice of
       proposed debarment. Both of these actions stem from a scheme to vio-
       late DBE regulations on a $12 million federally funded highway widen-
       ing project. As a certified DBE, PCI’s $280,000 subcontract for con-
       crete work on drainage ditch boxes and culverts would have satisfied
       the contractor’s DBE set-aside requirement. However, Patton con-
       spired with a non-DBE to perform the work and made false statements
       on the payroll reports to make it appear as though PC1 employees were
       doing the work. Patton pled guilty in October 2005 to a felony con-
       spiracy charge and was sentenced in March 2006 and fined $40,000
       and serve five years probation. This is an ongoing joint investigation
       with DCIS, the OK-DOT, and AF-OSI.

             Acting Inspector General Testifies on Household Goods
                                 Moving Fraud
       May 4, 2006
          The Acting Inspector General testified before the Senate Commerce Surface
       Transportation Subcommittee regarding OIG investigations of household
       goods moving fraud. He discussed OIG investigations that have led to the
       prosecution of 25 household goods carriers (many operating under multiple
       names), along with their officers and employees, for allegedly defrauding about
       8,000 victims nationwide since 2000. He also gave examples of the types of
       schemes used to hold goods hostage, as well as the impact on victims. His
       testimony noted that FMCSA has increased its focus on household goods
       enforcement and outreach. We recommended three near-term actions




                                                                                         activities   15
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 16




                                                    for the Agency: (1) meeting public access requirements for complaint data,
                                                    (2) ensuring that states enforce operating authority rules against unregistered
                                                    household goods carriers, and (3) taking more action to implement the
                                                    SAFETEA-LU provision which allows states to enforce Federal consumer
                                                    protection provisions.

                                                          Former Acting Superintendent of Massachusetts Bay
                                                    Transportation Authority (MBTA) ‘Money Room’ Gets One Year in
                                                                           Jail for Tax Evasion
                                                    May 11, 2006
                                                       Former MBTA manager Mary Lempitski, who oversaw the operation of
                                                    MBTA’s Cash Processing Center (also known as the ‘Money Room’), was sen-
                                                    tenced in U.S. District Court in Boston, MA to 366 days in prison and fined
                                                    $10,000 for tax evasion. Our investigation found that, from 2000 through
                                                    2002, Lempitski spent more than $267,000, mostly in $20 bills, at ‘high-end’
                                                    department stores and boutiques for personal items such as designer jewelry,
                                                    clothing, and cosmetics. Lempitski’s taxable income substantially exceeded the
                                                    amount she declared on her 2000 through 2002 income tax filings. Lempitski
                                                    pled guilty in January 2006 to three felony counts of tax evasion. The investi-
                                                    gation was conducted jointly with the IRS and MBTA Police.

                                                         Owner of California Composites Manufacturing Company
                                                        Sentenced for Unlawful Transportation and Distribution of
                                                                Substandard Compressed Gas Cylinders
                                                    May 18, 2006
                                                      Krishna Lal Agrawal, owner and chief engineer of Global Composites
                                                          International, Inc. (GCI), Ontario, CA, was sentenced in U. S.
                                                          District Court in Los Angeles to pay $9,073 in fines and restitution
                                                          for violating the Hazardous Materials Transportation Act and
                                                          ordered to serve 36 months probation (with the first 10 months as
                                                          home confinement). GCI produced compressed gas cylinders, which
                                                          required hydrostatic testing before sale to determine that cylinder walls
                                                          were sufficiently strong. Substandard compressed gas cylinders pose a
                                                          public health danger from possible rupture/explosion. In August 2005,
                                                          Agrawal pled guilty, admitting to causing the transportation and distri-
                                                          bution of 110 gas cylinders that were marked as having been properly
                                                          tested, when in fact they had not been. PHMSA suspended GCI’s
                                                          exemption and manufacturer authorization, and has issued a safety advi-
                                                          sory notice to the public. This was a joint investigation with the FBI,
                                                          with assistance from PHMSA.


    16              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 17




                           activities


                Small Community Aviation Delays and Cancellations
       May 19, 2006
           We issued a report on Small Community Aviation Delays and Cancellations.
       This audit was requested by the Senate Commerce Aviation Subcommittee.
       We found that, in our sample of scheduled passenger air service, flights from
       small communities incurred about the same rate of flight delays as those from
       large communities, but the delays were longer and small community flights
       were cancelled at higher rates than flights from larger communities. We also
       found that when the national aviation system is congested (usually due to
       weather), FAA and airlines work together to balance demand with capacity.
       FAA may implement programs to halt or delay flights in the most severe con-
       ditions, and the airlines may exercise some flexibility to rearrange delayed
       flights.

       Review of FAA Compliance with Anti-Lobbying and Appropriations
                              Act Restrictions
       May 19, 2006
          We issued our response to a February 10, 2006 request from the National
       Air Traffic Controllers Association (NATCA) that OIG conduct an investiga-
       tion to determine whether FAA’s communications to Congress and the media
       concerning legislation introduced by Senator Barak Obama violated the Anti-
       Lobbying Act and provisions contained in the Fiscal Year 2006 Appropriations
       Act. NATCA asserted that FAA officials violated the Anti-Lobbying and
       Appropriations Acts by attempting to gain grassroots opposition to the legisla-
       tion by sending documents to Congressional offices, posting documents on
       FAA’s website, and persuading newspaper editorial boards to write articles
       opposing the legislation. Based on our interviews with FAA officials and
       employees, and evaluations of FAA documents and electronic records, we did
       not find any evidence constituting any potential violation of the Anti-Lobbying
       Act or the DOT Appropriations Act by FAA officials or employees concerning
       Senator Obama’s legislation. Accordingly, we found no basis for referral of this
       matter to DOJ, nor for further review by the Department’s Office of General
       Counsel.




                                                                                          activities   17
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 18




                                                    Former Iowa Aircraft Maintenance Company Owner Pleads Guilty
                                                     to Forging Inspector’s Signature on Aircraft Maintenance Logs
                                                    June 7, 2006
                                                       Clark Calta, former owner of Air America, Mt. Vernon, IA, pled guilty in
                                                    U.S. District Court in Des Moines, IA to four felony counts of making false
                                                    statements regarding airplane and engine maintenance records. Our investiga-
                                                    tion found that Calta forged the name of an FAA- certified mechanic on the
                                                    maintenance logbooks of four private aircrafts, indicating that the annual
                                                    inspections had been performed, when they in fact had not. Annual inspections
                                                    are used to determine the airworthiness of the aircraft and are important in
                                                    protecting public safety. Sentencing for Calta is pending.

                                                         Minnesota Company and President Sentenced to Pay Over
                                                         $400,000 for Conspiring to Commit Fraud on Federal-aid
                                                                  Highway Projects Worth $4.4 Million
                                                    June 20, 2006
                                                              Minnesota Valley Landscape, Inc. (MVL) and its President, David
                                                           Allyn Lindstrom, were sentenced in U.S. District Court in St Paul, MN
                                                           for conspiracy to defraud the Federal Highway Administration on feder-
                                                           ally-funded highway construction projects. Lindstrom was ordered to
                                                           serve 18 months in prison, followed by 3 years supervised release and was
                                                           fined $4,000; MVL was sentenced to 5 years probation; and both MVL
                                                           and Lindstrom were ordered to pay $396,257 in restitution. Lindstrom
                                                           and MVL pled guilty in June 2005 to the felony charge. MVL is the
                                                           largest highway landscaping company in Minnesota, and was the prime
                                                           contractor on $4.4 million in such contracts between 1996 and 2002, as
                                                           well as subcontractor on numerous others. Our investigation found that dur-
                                                           ing that time, MVL invoiced for and was paid $396,257 through the feder-
                                                    ally-funded contracts for work either billed at other than the prevailing wage rates
                                                    or for overtime charged, but for which the MVL employees were not paid. In June
                                                    2005, MVL and Lindstrom were debarred by the Minnesota Department of
                                                    Transportation (MN-DOT) for three years. The investigation was conducted joint-
                                                    ly with the FBI, with assistance from the MN-DOT.

                                                      Report on the Air Traffic Organization’s Management Controls
                                                                            over Credit Hours
                                                    June 21, 2006
                                                       We issued a report on the Air Traffic Organization (ATO) and local air traf-
                                                    fic facility policies over credit hours. Credit hours are hours that an employee



    18              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd    1/10/2007   10:19 AM   Page 19




                            activities


       elects to work with supervisory approval in excess of the employee’s basic work
       requirement under a flexible work schedule. Our review indicated that since the
       implementation of the 1998 FAA and National Air Traffic Controllers
       Association collective bargaining agreement, the number of credit hours earned
       by ATO employees doubled from 503,000 hours to nearly 1.2 million hours in
       FY 2005, or the equivalent of approximately 577 full-time positions. We also
       found that despite the large numbers of credit hours being earned, ATO had
       no assurances that the credit hours were justified, necessary, or in the best inter-
       est of the Government because the ATO’s management controls over the earn-
       ing and use of credit hours were insufficient. The lack of controls resulted in a
       myriad of local credit hour policies, many of which limited facility manage-
       ment’s ability to determine if and when credit hours were necessary. During
       our review, ATO took timely action to address our concerns and improve its
       management oversight of credit hours by identifying agreements that needed
       to be renegotiated or rescinded.

          Observations on Current and Future Efforts to Modernize the

                           National Airspace System 

       June 21, 2006
          The Acting Inspector General testified before the House Subcommittee on
       Aviation on the progress to date with FAA’s Joint Planning and Development
       Office (JPDO). The testimony focused on progress and problems with current
       billion-dollar air traffic modernization projects, alignment of Agency resources
       needed to support the JPDO, and the actions needed to move forward with
       the Next Generation Air Traffic Management System.

            FHWA Suspends New York Traffic Engineering Firm

                           in Bribery Case 

       June 27, 2006
         Dunn Engineering and Associates, P.C. (Dunn); Norton Brothers
       Dunn Engineering and Surveying, LLP (a related firm); and Dunn
       executives: Walter M. Dunn, Jr., President; Ronald N. Hill, Vice
       President; and Robert A. Reiss, Treasurer, were suspended pending
       debarment proceedings by the Federal Highway Administration from



                                                                                              activities   19
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 20




                                                    doing business with the Government. Dunn pled guilty in April 2005 to
                                                    charges of providing gratuities to a former District of Columbia Department of
                                                    Transportation (DC-DOT) official, Wilhelm DerMinassian, in exchange for
                                                    favorable treatment by DerMinassian on a five-year $17.5 million Integrated
                                                    Traffic Management System contract that Dunn held with DC-DOT.
                                                    DerMinassian also pled guilty to related charges and was sentenced in
                                                    September 2005. In May 2006, Dunn was suspended by the DC Office of
                                                    Contracting and Procurement from doing business with the District, with pro-
                                                    posed debarment pending. The investigation was conducted jointly with the
                                                    FBI and the Antitrust Division of DOJ.

                                                      Two Montana Businessmen and Former Airport Director Plead
                                                       Guilty in Connection with Fraudulent $603,000 Land Sale to
                                                                   Missoula International Airport (MIA)
                                                    June 29, 2006
                                                       William Joseph Lefler and Roger Dale Hall pled guilty in U.S. District Court
                                                    in Missoula, MT to program fraud in connection with a land sale scheme. In
                                                    December 2000, the Missoula International Airport purchased additional run-
                                                    way approach land from Lefler and Hall for $603,000 ($350,000 above the
                                                    highest appraised value). Our investigation found that the men conspired with
                                                    John Seymour, former director of MIA, to sell the land to MIA at an inflated
                                                    price, with Seymour receiving a $60,000 kickback. In May 2006, Seymour also
                                                    pled guilty to the charges. The three men were indicted on charges of conspir-
                                                    acy, mail fraud and program fraud in March 2006. Sentencing date for the
                                                    three men is pending. This was a joint investigation with the FBI.

                                                      Internal Controls Over Payments for Emergency Disaster Relief
                                                                         Transportation Services
                                                    June 30, 2006
                                                       We issued our report of internal controls over payments for emergency relief
                                                    transportation services. The Federal Government’s National Response Plan
                                                    assigns DOT the responsibility of coordinating and providing Federal and civil
                                                    transportation support, as directed by the Federal Emergency Management
                                                    Agency, during times of national emergency. In response to the devastating
                                                    hurricanes striking the U.S. Gulf Coast states in 2005, FAA’s Southern Region
                                                    activated an emergency relief transportation services contract to deliver com-
                                                    modities such as water, ice, and food to disaster distribution sites and to trans-
                                                    port people to and from hurricane-affected areas. FAA and the contractor
                                                    arranged for over 11,000 trucks to move more than 14,000 truckloads of
                                                    goods.


    20              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 21




                           activities

          We found that better internal controls are needed to ensure that the
       Government receives the transportation services it pays for. While there
       were procedures in place for Government personnel at field locations to
       log trucks and trailers in and out as they arrived and departed, this doc-
       umentation was not uniformly sent to FAA’s Southern Region
       Emergency Transportation Center and was not used to verify invoices
       from the contractor. Instead, contracting officers were relying on doc-
       umentation provided by the contractor to verify that transportation
       services had been provided as billed. While the documentation offered
       a level of support for billings, the lack of an independent verification
       process meant that contracting officers essentially had to rely on con-
       tractor documentation to support contractors’ invoices. FAA Southern
       Region management is aware of the need to develop better internal con-
       trols and is addressing this issue through an on-line contract adminis-
       tration system. Once the system is in place and operating, FAA Southern
       Region management will need to ensure that contracting officers are
       using the system to verify invoices.




                                                                                    activities   21
FINAL SAR 12-21-06.qxd    1/10/2007                       10:19 AM   Page 22




                   Progress and Challenges for Moving Forward with the
                      Next Generation Air Traffic Management System




      O
                ne of the issues that dominated the congressional aviation agenda in 2006 focused on how quickly — and
                at what cost — the Nation could move to the next generation air traffic management system. In several
                congressional testimonies before the House and Senate, the OIG chronicled progress to date in planning for
       the next generation system.
           FAA’s Joint Planning and Development Office (JPDO) was specifically mandated by Congress to develop a vision
       for the next generation system and coordinate various Federal agency research efforts. Currently, JPDO participat-
       ing agencies include the National Aeronautics and Space Administration and the Departments of Defense,
       Homeland Security, and Commerce.


       Surging Demand for Air Travel.
           There are a number of compelling reasons for moving toward the next generation system. The current air traf-
       fic system has served the Nation well, but FAA reports that the current system will not be sufficient to meet the antic-
       ipated demand for air travel or changes in the industry. Last year, over 700 million passengers used the system, and
       this number is forecasted to grow to over 1 billion by 2017. The following table illustrates the forecasted growth in
       passenger demand through 2017.


                                              U.S. Commercial Air Carriers System Enplanements — Fiscal Years 2005-2017
                                 Millions of Passengers




                                                              2005         2007   2009     2011          2013          2015          2017

                                                                                         Source: FAA Aerospace Forecast Fiscal Years 2005–2017


       JPDO’s Critical Mission.
           The JPDO’s congressionally mandated mission to leverage resources throughout the Federal government is crit-
       ical given that FAA conducts little long-term air traffic management research. In fact, about 70 percent of FAA’s
       $130 million Research, Engineering, and Development budget is dedicated to safety. Moreover, only about



      22                 Semiannual Report to Congress
FINAL SAR 12-21-06.qxd     1/10/2007    10:19 AM    Page 23




          55 percent of FAA’s $2.5 billion annual investment in its Facilities and Equipment Account for modernizing the
          National Airspace System will actually go for acquiring air traffic control systems, while the remainder will be
          spent on personnel, mission support, and facilities as illustrated below.


          High-Risk Transition.
            Moving to the next gen-
                                              Figure 1: FAA’s FY 2007 Facilities and Equipment Budget Request
          eration air traffic system is      Mission Support
          important to meet the              $282,000,000
          demand     for    air    travel,        11%

          change the way FAA pro-
          vides services, and help con-
          trol    operating         costs.                                                                                ATC
                                                Facilities
                                                                                                                      Modernization
          However, it is also an              $402,000,000
                                                                                                                     $1,370,500,000
          extraordinarily         complex         16%
                                                                                                                          55%
          and high-risk effort given
          the potential multi-billion
          dollar investments by FAA
                                              Personnel and
          and airspace users.        Also,   Related Expenses
          the transition to the next          $447,900,000
                                                   18%
          generation       system     will
          involve important but diffi-
          cult policy questions, such
          as how to spur aircraft
          equipage and how to han-
          dle a mix of aircraft with different capabilities in congested airspace.


            In a series of congressional testimonies, we have identified a range of actions to reduce risks with the next gen--
          eration system and to help the FAA and JPDO transition from planning to implementation:

            ■ Establishing Cost Estimates, Quantifying Expected Benefits, and Developing a Roadmap for Industry. The
          JPDO’s progress report to Congress was silent on funding requirements and complex transition issues. Moving
          to the next generation air traffic management system will require significant investments from FAA (new
          ground systems) and airspace users (new avionics).
            Some preliminary estimates have been developed, but they have not been finalized or approved by senior
          FAA management. There are considerable unknowns and costs depend on, among other things, performance
          requirements for new automation, weather initiatives, and to what extent FAA intends to consolidate facilities.

            We pointed out that the JPDO needs to report the costs of a next generation system to Congress and stake
          holders along three vectors — development efforts, adjustments to existing programs, and system implemen-



                                                                                           f o c u s                                  23
FINAL SAR 12-21-06.qxd    1/10/2007      10:19 AM     Page 24




      tation. This will give decision makers a clearer understanding of system costs and program schedules.


         ■ Developing and Implementing Mechanisms for Alignment between Agencies. There is considerable coordination
      among JPDO participating agencies but little alignment of budgets and plans. There is a need for mechanisms to help
      the JPDO align diverse agency efforts over the long haul. The JPDO recognizes this and is working with the Office of
      Management and Budget to, among other things, develop an integrated budget document.
         We pointed out that JPDO should include in its periodic reports to Congress a table of specific research projects with
      budget data for FAA developmental efforts as well as budget data of other agencies it is leveraging and how ongo-
      ing research is supporting the next generation air traffic management system. This will help decision makers address
      whether FAA is leveraging the right research and taking full advantage of ongoing research being performed by other
      agencies.


         ■ Developing Approaches for Risk Management and Systems Integration. The transition to the next generation air
      traffic management system is a high-risk effort potentially involving billions of dollars for both the government and
      industry. FAA will face extraordinarily complex software development and systems integration challenges. The JPDO
      and FAA need to articulate how problems that affected past modernization efforts will be mitigated and what spe-
      cific skill sets will be required. This is also important because the transition to a new system will require synchronized
      investments over several years between FAA (new ground systems) and airspace users (new avionics) on an unprece-
      dented level.


         ■ Conducting Sufficient Human Factors Research to Support Anticipated Changes. The JPDO is planning to make
      fundamental changes in how the system operates (for both controllers and pilots) to accommodate three times more
      aircraft in the system. Our work shows that focused human factors work will be needed to ensure that expected
      changes in roles and responsibilities of pilots and controllers can safely be accommodated. Key issues focus on what
      reasonably can be expected from new automation systems and how more responsibility can be shifted to the cockpit.
      It will be important for the JPDO to conduct sufficient human factors analyses and studies to ensure that the changes
      envisioned for the next generation air traffic management system can be safely accommodated.


      Future Outlook.
         The question of how to fund the next generation system will remain a critical issue in 2007. Both FAA’s current
      authorization and the existing airline ticket taxes expire in the fall of 2007. While there is almost universal agreement
      that the existing air traffic management system needs to change to meet the anticipated growth, there is consider-
      able disagreement among aviation shareholders about how to pay for it. Further, it is doubtful that Congress will
      authorize billions of dollars for a wide range of new initiatives without some assurances or mechanisms in place to
      prevent problems that plagued FAA’s past modernization efforts.




    24                Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 25




                           activities


       Former Connecticut Official and a Private Contractor Plead Guilty
         to Theft and False Statement Charges Related to a Renovation
                     Project at New Haven’s Union Station
       July 5, 2006
          Saverio Sereno, a former supervising rail officer at Connecticut-DOT
       (ConnDOT), and Frederick F. Kelly, a private contractor, pled guilty in U.S.
       District Court in New Haven, CT to felony charges of theft involving federal
       programs and of making false statements, respectively. Sereno was Project
       Manager on a $300,000 construction contract for renovation of
       ConnDOT offices in New Haven’s Union Station. Louis F.
       Testa was the owner of Merritt Builders, the company which was
       the prime contractor on the renovation project. Sereno admitted
       to scheming with Raymond F. Cox, former Assistant Rail
       Administrator for ConnDOT, to have Testa provide items of
       value (e.g., a desktop computer, refrigerators, and televisions) to
       several ConnDOT employees, with the expenses being billed by
       Testa to ConnDOT through the project. Sereno was also
       involved in influencing Testa to provide $3,000 to Kelly, who pre-
       pared fake bids on the project in order to circumvent the com-
       petitive bidding process. Kelly admitted lying to federal investi-
       gators by denying that he received anything of value in return for preparing
       the fake bids. On June 19, Cox pled guilty to theft involving federal programs
       and to obstruction of justice. Cox admitted that, between June 2003 and
       May 2004, he directed Testa to provide Kelly with an additional
       $3,500 in cash for fake bid documents for the renovation and to
       provide items of value to several ConnDOT employees. Cox also
       admitted that after learning of the OIG investigation in March 2005, he
       attempted to corruptly persuade two of the ConnDOT employees to dispose
       of items they had received and to deny knowledge of them if questioned by
       authorities. This ongoing investigation is being conducted jointly with the FBI,
       IRS, and ConnDOT.




                                                                                          a c t i v i t i e s   25
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 26




                                                    Ohio Landscaping Subcontractor Ordered to Pay $54,050 in Fines
                                                      and Restitution for Disadvantaged Business Enterprise (DBE)
                                                      Fraud Under a $37 Million Federally-funded Highway Project
                                                    July 6, 2006
                                                       Deitering Landscaping, Inc. was sentenced in U.S. District Court in
                                                    Columbus, OH to pay $44,050 in restitution, fined $10,000 and ordered to
                                                    serve two years probation, for making false statements or otherwise aiding and
                                                    abetting in providing false statements in the form of certified payrolls submit-
                                                    ted to the Ohio Department of Transportation (O-DOT) under a federally-
                                                    funded highway project. Between October 2001 and July 2003, Deitering (a
                                                    non-DBE) was a subcontractor on a $37 million highway project in Ohio with
                                                    a 7.1 percent DBE goal. Our investigation found that while Deitering certi-
                                                    fied that a DBE firm would perform seeding, mulching, and ditch protection
                                                    on the project, Deitering employees and equipment were used in performing
                                                    this work. After felony charges were leveled against Deitering, O-DOT
                                                    debarred the firm from doing business with the Ohio state government for a
                                                    six-month period ending in October 2004. Deitering pled guilty in
                                                    February 2006. The ongoing investigation is being conducted jointly with
                                                    the Department of Labor.

                                                     California Aircraft Parts Brokerage and Manager are Convicted of
                                                    Conspiracy and Fraud Involving Misrepresentation of Aircraft Parts
                                                    July 10, 2006
                                                       Standby Parts, Inc. (Standby), an El Segundo, CA aircraft parts brokerage
                                                    and Herik Johansen, its operator/manager, were found guilty following a
                                                    two-week trial in U.S. District Court in Los Angeles on felony charges of con-
                                                    spiracy and fraud involving aircraft parts. Our investigation found that
                                                    Johansen conspired with others, including Daniel L. Booker, a former FAA
                                                    Designated Airworthiness Representative and George Thompson, owner of
                                                    Total Airframe and Turbine Company (TATCO), a former FAA-certificated
                                                    repair station, in obtaining FAA airworthiness tags for various aircraft parts
                                                    (e.g., engine bolts and a tail skid actuator) indicating that the parts were either
                                                    new or of higher quality than Johansen knew them to be. Johansen then sold
                                                    the misrepresented parts. Booker and Thompson pled guilty in 2003. Booker
                                                    admitted to signing Forms 8130-3 without actually inspecting the parts and
                                                    Thompson to signing Forms 8130-3 for parts which TATCO was not rated
                                                    to inspect. None of the affected parts were deemed flight critical, but FAA
                                                    issued a safety alert on some parts in April 2001, and is considering others.
                                                    TATCO is no longer in business and Thompson has died. Johansen and




    26              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 27




                          activities

       Standby are scheduled for sentencing on October 31, 2006; Booker’s sen-
       tencing is also pending. The investigation was conducted jointly with the FBI,
       with assistance from FAA.


              Review of FAA’s Actions to Address Mold at the Detroit

                  Metropolitan Air Traffic Control Tower Facility 

       July 11, 2006
          We issued our report on FAA’s actions to address mold at the Detroit
       Metropolitan Air Traffic Control Tower Facility. This audit was requested by
       the two senators and six representatives of the Michigan congressional delega-
       tion. We found that FAA has taken actions to remove mold from the Facility
       but has not alleviated the source of moisture causing mold growth. Until the
       moisture source has been controlled, mold will continue to be an ongoing
       problem. FAA is aware of this issue and advised us that projects to address
       the moisture and humidity problems are expected to be complete in
       November 2006. Those projects include sealing and caulking the exterior of
       the tower to eliminate water infiltration; additional replacement of interior
       wallboard; and further heating, ventilation, and air conditioning work to man-
       age humidity. Completing these projects on schedule is essential to fully reme-
       diate mold at the Facility.


         Lower Manhattan Reconstruction: Lessons Learned From Large

                          Transportation Projects 

       July 13, 2006
          The Acting Inspector General testified before the House Homeland Security
       Subcommittee on Management, Integration, and Oversight on the importance
       of oversight of the post September 11th transportation reconstruction projects
       in Lower Manhattan. The Federal Government dedicated $4.55 billion to fund
       large-scale projects to reconstruct and enhance Lower Manhattan’s transporta-
       tion infrastructure, including the Permanent World Trade Center PATH
       Terminal, Fulton Street Transit Center, South Ferry Terminal Station, the
       World Trade Center Vehicle Security Center, and the Route 9A/West
       Street/Promenade South highway project. Significant amounts of Federal
       funding are also being dedicated to other ongoing transportation projects in
       the area, most notably the large-scale East Side Access and the Second Avenue



                                                                                         activities   27
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 28




                                                    Subway projects. The Acting Inspector General addressed key lessons learned
                                                    from OIG work on federally funded transportation projects that should be
                                                    applied wherever major transportation construction is undertaken, including
                                                    reconstruction after any future disaster.

                                                         Missouri Asphalt Paving Contractor Pays $200,000 in Civil
                                                                    Settlement Of A False Claims Case
                                                    July 17, 2006
                                                       Pace Construction Company (Pace), a St. Louis, MO asphalt paving firm,
                                                    paid $200,000 in accordance with a civil settlement reached with the U.S.
                                                    Attorney’s Office in St. Louis and the Federal Highway Administration. The
                                                    settlement resolves allegations that Pace, which held road paving contracts with
                                                                 the Missouri Department of Transportation (MO-DOT), submit-
                                                                 ted false claims for payment associated with the quality of asphalt
                                                                 materials used. Investigation found that, between August 28 and
                                                                 September 24, 2004, Pace employees submitted incorrect core
                                                                 samples to MO-DOT for testing. The core samples were of high-
                                                                 er quality than the asphalt actually used in the project, resulting in
                                                                 inflated contract payments. There is no evidence that Pace man-
                                                                 agement was aware of the fraudulent claims, but the employees
                                                                 involved have since been terminated from the firm, and a compa-
                                                                 ny policy that provided employee bonuses based on the outcome
                                                                 of asphalt quality tests has been discontinued. MO-DOT and
                                                                 FHWA assisted in this investigation.

                                                      Southeastern Pennsylvania Transportation Authority (SEPTA)
                                                      Contractor and Owner Convicted Of Disadvantaged Business
                                                     Enterprise (DBE) Program Fraud; Prime Contractor Ordered to
                                                                        Pay Over $1.2 Million
                                                    July 20, 2006
                                                       A jury in U.S. District Court in Philadelphia, PA found Tulio Landscaping
                                                    Inc. (TLI) and its owner, Michael V. Tulio, guilty of conspiracy and mail fraud
                                                    related to the DBE program on SEPTA contracts. Between 1999 and 2002,
                                                    TLI was awarded approximately $418,000 in prime contracts by SEPTA (an
                                                    FTA grantee) for replacement of collapsed culverts on a commuter rail project.
                                                    The contracts required TLI to subcontract with a DBE for a portion of the
                                                    work. Our investigation found that TLI circumvented those requirements by
                                                    paying Pullins Dump Truck, a certified DBE, $4,810 on the DBE subcon-
                                                    tracted project that was actually performed by TLI, but billed to SEPTA as
                                                    DBE work. Tulio submitted false checks, reports, and correspondence misrepre-


    28              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 29




                           activities


       senting that the DBE had performed the work. Tulio and TLI are
       scheduled for sentencing on October 26, 2006. This investigation,
       conducted jointly with the FBI, is part of a larger case involving JMG
       Excavating Co., (JMG) a prime contractor that pled guilty on simi-
       lar charges and was sentenced in May 2006 to pay over $1.2 million
       for DBE fraud. On May 18, JMG pled guilty to mail fraud related
       to a DBE pass-through scheme on federally-funded transit con-
       tracts. JMG also agreed to be debarred from doing business with
       the government for five years. Sentencing for Tulio is set for
       December 15, 2006.

        Perspectives on the Progress and Actions Needed to Address the

                   Next Generation Air Transportation System

       July 25, 2006
          The Assistant Inspector General for Aviation and Special Programs testified
       before the Senate Aviation Subcommittee regarding FAA’s Joint Planning and
       Development Office (JPDO). Our testimony focused on JPDO’s mission and
       the need for FAA to refine costs, align diverse Agency budgets, and set expec-
       tations for airspace users. We also identified a range of actions that will help
       shift JPDO from planning to implementation, including finalizing cost esti-
       mates, developing mechanisms for alignment, and conducting targeted human
       factors research to support anticipated changes safely.

       Illinois Man Pleads Guilty to Flying a Helicopter Without a Valid
            Pilot’s License and Falsifying an Application for Airman’s
                                Medical Certificate
       July 26, 2006
          Randy A. Sanders pled guilty in U.S. District Court in Chicago, IL to felony
       charges of operating an aircraft without an airman’s certificate and of making
       false statements to the FAA for an airman medical and student pilot certificate.
       Our investigation found that Sanders falsified his application to the FAA in
       2004 by failing to disclose several prior convictions -- one weapon and two
       drug-related. In January 2005, Sanders also piloted a helicopter he owned from
       Kenosha, WI to Schaumburg, IL for routine maintenance, even though he did



                                                                                          a c t i v i t i e s   29
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 30




                                                    not hold a valid airman’s certificate. On October 25, Sanders was sentenced to
                                                    12 months probation and ordered to pay a $5,000 fine. FAA assisted in this
                                                    investigation.

                                                    Former Employees of a Seattle Fuel Delivery Company Plead Guilty
                                                        in Case Involving Over $3.9 Million of Stolen Motor Fuel
                                                    July 27, 2006
                                                       Christy S. Rawls, a former automation clerk at Kinder Morgan Energy
                                                    Partners’ (KMP) Terminal 18 in the Port of Seattle, WA, and Andrew D.
                                                    Cutright, a former KMP terminal operator, were each sentenced in U.S.
                                                    District Court in Seattle, WA. They were ordered to pay $235,360 in restitu-
                                                    tion and serve 18 months in prison for their participation in a scheme to steal
                                                    more than 1.49 million gallons of fuel. In March 2006, a grand jury indicted
                                                    Rawls, Cutright, and three co-conspirators including, a former KMP terminal
                                                    supervisor and two employees of General Transport Company (GTC), a Seattle
                                                    fuel delivery firm, Neil B. Kikuchi and James R. Ito. On July 17, Kikuchi and
                                                    Ito pled guilty to money laundering, conspiracy, and theft of interstate ship-
                                                    ments and await sentencing in October. The investigation determined that as
                                                    part of the scheme to steal fuel and then sell it to gasoline stations, the con-
                                                    spirators took advantage of an acceptable “margin of error” for the rack pumps
                                                    used to fill tanker trucks, as the oil companies would not miss fuel as long as
                                                    they kept the fuel amounts within the margin of error on the pumps. Kikuchi
                                                    would enter the Terminal by driving a GTC’s tanker truck and proceed to a
                                                    rack pump for a normal and legitimate transaction. Rawls would subsequent-
                                                    ly access the terminal accounting system and delete the bills of lading associat-
                                                    ed with Kikuchi’s fuel transaction from the system, ensuring no record of the
                                                    pumped fuel. In addition, Cutright participated in the scheme by using anoth-
                                                    er method which misused a maintenance code at the pump. The maintenance
                                                    code would override the internal accounting system so that it would not record
                                                    the volume or type of fuel that passed through a pump while it was in manual
                                                    or maintenance mode, again ensuring that no record or bill of lading was gen-
                                                    erated from the pumped fuel. The former KMP terminal supervisor devised
                                                    the scheme to steal the fuel by using the maintenance code. Kikuchi and Ito
                                                    then sold the stolen fuel at or below market rates to unsuspecting owners of
                                                    fuel service stations operating in Washington, Idaho, and Oregon. The co-con-
                                                    spirators received a total of about $3.9 million in sales from the stolen fuel
                                                    between 1999 and October 2004, when KMP detected the fuel discrepancies
                                                    through an internal audit. An estimated $750,000 in federal and state excise
                                                    taxes also went uncollected. The ongoing investigation is being conducted
                                                    jointly with the IRS-CID and Port of Seattle Police.




    30              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 31




                           activities


                Third Quarterly Report on Amtrak Financial Status
       July 28, 2006
          As required by Congress, we issued our third quarterly assessment of the sav-
       ings Amtrak has achieved from operational reforms. This report also fulfills the
       certification requirement included in the FY 2006 DOT Appropriations Act.
       We found that Amtrak achieved at total of $46.3 million savings from operat-
       ing reforms through May 2006 - $3.8 million savings from operational reforms
       not included in the FY 2006 Board-approved budget and $42.5 million savings
       from operational reforms included in the FY 2006 budget. These overall sav-
       ings contributed to Amtrak’s current better-than expected financial perform-
       ance through the third quarter of FY 2006. We also found that Amtrak cur-
       rently estimates its financial performance will continue to improve and, as a
       result, expects to end FY 2006 with a $165 million cash balance.

        Ohio Painting Company and Owner Plead Guilty to Bribery and
            Conspiracy in Substandard Bridge Painting Work on a
                            $2.5 Million Project
       July 28, 2006
          American Painting Company, Inc. (APC), Campbell, OH, and its owner,
       Anthony Katsourakis, pled guilty in U.S. District Court in Cleveland, OH to
       felony charges of bribery and conspiracy in connection with a $2.5 million
       painting contract. Katsourakis admitted that, between May and December 2001,
       he conspired with others and bribed an Ohio Department of Transportation
       inspector by making cash payments totaling $24,000 and allowing use of his
       Florida condominium in exchange for approval of shoddy work (e.g., failure to
       properly scrape, sand-blast, and prime surfaces) on a federally-funded bridge
       painting project of Interstate 90, west of Cleveland. The estimated cost of re-
       painting the substandard bridge work is $7.5 million, three times the original
       amount. Both were suspended by FHWA pending proposed debarment, and
       their sentencing date is pending. This is an ongoing joint investigation with the
       FBI.




                                                                                           a c t i v i t i e s   31
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 32




                                                    Ex-Fugitive Canadian Truck Driver Involved in Fatal U.S. Accident

                                                                   Pleads Guilty to Falsifying Logbooks
                                                    August 3, 2006
                                                       Gulvinder Singh Sandhu, a former driver for Montreal-based Garfield
                                                    Container Transport, Inc., pled guilty in U.S. District Court in Philadelphia,
                                                    PA to 42 counts of making false statements on his driver’s daily logbooks. On
                                                    September 22, 1999, a tractor trailer overloaded with rock salt that was driven
                                                    by Sandhu jumped a guardrail on Interstate 78 in Philadelphia, killing four
                                                    occupants of a minivan -- including a four year-old boy and his parents. Our
                                                    investigation found that Sandhu falsified his logbooks on a nearly daily basis
                                                    between August 2 and September 22, 1999 to conceal that he was driving
                                                    more than the maximum driving hours in violation of federal motor carrier
                                                    safety regulations. In April 2002, Sandhu was indicted by a federal grand jury.
                                                    On May 30, 2006, he voluntarily returned to the United States to face the
                                                    criminal charges after more than four years as a fugitive in Canada, and is being
                                                    held pending sentencing, scheduled for November 2, 2006. The investigation
                                                    was conducted with assistance from the Canadian Ministry of Justice and
                                                    FMCSA.

                                                    Use of Airport Revenues by the Greater Orlando Aviation Authority
                                                    August 3, 2006
                                                              Our report to the FAA on the use of airport revenues by the
                                                           Greater Orlando Aviation Authority found that the City of Orlando,
                                                           the airport sponsor, diverted $1.7 million in Airport revenues by
                                                           overcharging the Aviation Authority for police pension fund contri-
                                                           butions and a radio communications system upgrade. In addition, we
                                                           identified approximately $493,000, over a 5-year period, in net park-
                                                           ing fine proceeds that have been retained by the City instead of being
                                                           used to offset the Aviation Authority’s costs of issuing the tickets. We
                                                           also found that the Aviation Authority could be losing as much as
                                                           $144,000 per year in rental income from a lease for a plant inspection
                                                           station. We recommended that FAA ensure that the City reimburses the
                                                           Aviation Authority for the $1.7 million in revenue diversions and pro-
                                                           vides the Aviation Authority with the approximately $493,000 in past net
                                                           revenue obtained from parking tickets plus future net revenue. Finally,
                                                           FAA should require the Aviation Authority to recover its costs of a plant
                                                           inspection station.




    32              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 33




                          activities


           Two Israeli Nationals and Former Florida Driver’s License
         Examiner Plead Guilty in Connection with the Unlawful Sale of
                                Driver’s Licenses
       August 4, 2006
          Joseph Cohen and Elan Bitton, both Israeli nationals residing in Florida,
       pled guilty in U.S. District Court in Miami, FL to a one-count charge of con-
       spiracy to the unlawful production of driver’s licenses (DLs) and commercial
       driver’s licenses (CDLs). Our investigation found that Cohen served as a mid-
       dleman, receiving $1,500 from Bitton (who sought to obtain a Florida CDL
       for which he was ineligible) and directing him to Marta Pinto, a license exam-
       iner for the Florida Division of Highway Safety and Motor Vehicles. Pinto
       received between $700 and $1,000 for processing approximately 100 DLs and
       CDLs, including Bitton’s. Pinto pled guilty on July 26, 2006. Pinto’s plea
       stems from a 2003 household goods (HHG) moving fraud case in which Pinto
       and a middleman were identified as allegedly assisting many Israeli and foreign
       nationals who were employed by HHG companies to obtain CDLs and DLs.
       A 17-year employee of DHSMV, Pinto resigned in September 2005 and is
       scheduled for sentencing on October 4, 2006. Cohen and Bitton are also
       scheduled for sentencing on October 4, 2006. This ongoing investigation is
       being conducted jointly with the FBI and DHS/ICE, with assistance from the
       Florida Highway Patrol.

         Owner of Florida Import/Export Company Sentenced to Forfeit
           Two Private Aircraft for Illegally Transporting Radioactive
                        Hazardous Materials (HazMat)
       August 4, 2006
          Harold J. DeGregory, Jr., president and registered agent of H&G
       Import/Export of Fort Lauderdale (H&G) was ordered by a U.S. District
       Court Judge in Miami, FL to forfeit two Piper aircrafts valued at a combined
       $150,000 and sentenced to two years in prison for illegally transporting
       radioactive HazMat and for making false representations to the Government.




                                                                                         a c t i v i t i e s   33
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 34




                                                    Our investigation disclosed that DeGregory contracted with Bahamas Oil
                                                    Refining Company (BORCO) to transport radioactive Iridium-192 to and
                                                    from the Bahamas. H&G was not licensed or certified to handle or transport
                                                    radioactive HazMat. DeGregory never submitted HazMat manifests required
                                                    by law, nor did he disclose the HazMat (which, was shipped in November 2004
                                                    from the Bahamas to Fort Lauderdale, and hidden in a wing compartment of
                                                    the aircraft) to Customs officials. DeGregory was convicted by a Miami jury in
                                                    January 2006. This was a joint investigation with DHS-ICE, DHS-CBP, and
                                                    the FAA.

                                                                         Aviation Industry Performance
                                                    August 4, 2006
                                                            We issued the eighth in a series of periodic updates to our aviation per-
                                                         formance report. The report identifies trends in aviation demand and
                                                         capacity, aviation system performance, airline finances, and service to
                                                         small communities. The report highlights the rise in fuel costs and the
                                                         impact on the airlines’ efforts to improve their financial performance
                                                         through control of other costs and increases in fares. The report also
                                                         notes that domestic airline service to most communities, after rebound-
                                                         ing in 2005 to 2000 levels, has begun to decline as airlines better match
                                                         capacity with demand. However, service to the smallest communities did
                                                         not rebound in 2005 and suffered a further deterioration into 2006.

                                                     Owner of Financial Services Company Sentenced for Involvement
                                                                 in Trucking Company Bonding Scheme
                                                    August 4, 2006
                                                       Larry James Jackson, owner of Pacific Northwest Financial Services, Inc.
                                                    (PNFS), in Portland, OR, was sentenced in U.S. District Court in Sacramento,
                                                    CA to pay $236,347 in restitution and serve 70 months in prison for mail fraud
                                                    stemming from a nationwide interstate trucking company bonding scheme.
                                                    DOT regulations require $10,000 surety bonds or trust funds for ensuring the
                                                    financial responsibility of trucking companies or brokers. Although Jackson
                                                    was never authorized to act as a bonding company and collect trust fund
                                                    monies, he falsely represented PNFS as a financial institution for that purpose.
                                                    Jackson also submitted fraudulent forms to FMCSA between August and
                                                    December 2003. In addition, Jackson embezzled the money collected for his
                                                    personal use. In September 2005, Jackson pled guilty, admitting to defraud-
                                                    ing 57 interstate trucking companies or brokers. PNFS is now defunct.




    34              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007    10:19 AM   Page 35




                           activities


        U.S. Merchant Marine Academy (USMMA) Employee Sentenced
              for Resisting Arrest by the Academy Chief of Police
       August 8, 2006
           Dan Kyle Tibbs, a motor vehicle operator at the USMMA in King’s Point,
       NY was sentenced in U.S. District Court in Islip, NY to four months impris-
       onment for resisting arrest by the USMMA’s Chief of Police. Our investigation
       found that, on December 3, 2004, Tibbs obstructed an Academy roadway,
       failed to heed police instructions, and fought with officers attempting his arrest.
       Subsequently, the Police Chief has been absent from duty for over a year stem-
       ming from injuries associated with this incident. Tibbs pled guilty to the felony
       charge in February and is currently incarcerated. He has been issued a Notice
       of Proposed Removal. In October, Tibbs responded to the USMMA with his
       reasons as to why he should not be removed. The USMMA Superintendent’s
       (Deciding Official) decision is pending. The investigation was conducted joint-
       ly with the USMMA Police Department.

        Former Florida State Examiner Pleads Guilty to Accepting Bribes
           to Issue Fraudulent CDLs; Florida DMV Revokes 139 CDLs
       August 11, 2006
           Yolanda Pippins, a former examiner of the Florida Division of Motor
       Vehicles, pled guilty in U.S. District Court, Tampa, FL, to a one count
       Information charging conspiracy to accept bribes in exchange for the issuance
       of fraudulent commercial driver’s licenses (CDL). The investigation disclosed
       that Pippins, whose responsibility was to monitor applicants for CDL and
       ensure their qualifications before the issuance of a CDL, used her employment
       to fraudulently issue CDLs to individuals who did not have the requisite train-
       ing and documentation to support their qualifications. Pippins admitted to
       accepting between $100 and $200 per fraudulent commercial driver’s license
       and to issuing between 50 and 80 fraudulent licenses. The State DMV sent
       letters to all who were issued CDLs by Pippins, requiring that they return
       to the DMV for proper processing or have their CDL revoked.
       Subsequently, 139 CDLs were revoked. Sentencing date for Pippins is pend-
       ing. The investigation was jointly worked with the Florida Dept. of Law
       Enforcement and Florida Dept. of Highway Safety and Motor Vehicles.



                                                                                             a c t i v i t i e s   35
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 36




                                                        Virginia Truck Driver Gets Jail Time for Falsifying Logbooks
                                                    August 11, 2006
                                                       Matthew L. Gessner, a former driver for Carson Brown Trucking, Inc.,
                                                    Wytheville, VA, was sentenced in U.S. District Court in Brunswick, GA to
                                                    10 months in prison followed by 3 years probation for making false state-
                                                    ments on his driver’s daily logbooks. On September 12, 2004, a truck driv-
                                                    en by Gessner veered off Interstate 95 in Camden County, GA, striking a
                                                    parked vehicle and killing one of the occupants - a ten year-old child. Our
                                                    investigation found that Gessner had fallen asleep at the wheel after driving
                                                    19 hours without rest, far exceeding the maximum driving hours permitted
                                                    by federal highway safety regulations. Our investigation also disclosed that
                                                    Gessner had falsified his logbook on several prior occasions to conceal his
                                                    hours-of-service violations. Gessner was indicted by a Federal grand jury in
                                                    March 2006 and pled guilty in May. A state vehicular homicide charge is pend-
                                                    ing. This investigation was conducted jointly with FMCSA.

                                                     Georgia Motorcycle Importer Sentenced to Prison for Smuggling
                                                                 and Selling Grey Market Motorcycles
                                                    August 17, 2006
                                                        Andrew Wright, the Chief Executive Officer for SuperBike Racing, Inc. of
                                                    Valdosta, GA, was sentenced in U.S. District Court in Valdosta, GA, to pay
                                                    $20,674 in restitution and ordered to serve 27 months in Federal prison.
                                                    Wright was convicted in March on multiple counts of smuggling illegal goods
                                                    into the U. S., mail fraud, wire fraud, and false statements. Wright, a citizen of
                                                    the United Kingdom, illegally imported five foreign-made motorcycles into the
                                                    United States that did not comply with National Highway Traffic Safety
                                                    Administration (NHTSA) safety standards and Environmental Protection
                                                    Agency (EPA) environmental emission standards. Wright applied labels to the
                                                    motorcycles indicating they complied with these standards and sold them to
                                                    unsuspecting customers. Our investigation was conducted jointly with the
                                                    EPA-OIG and DHS-ICE, with assistance from NHTSA, DHS Customs and
                                                    Border Patrol, and the EPA Office of Transportation and Air Quality.

                                                        FHWA Recovered Total of $20 Million from Tennessee DOT
                                                          Following Memphis Intermodal Transportation Project
                                                                             Investigation
                                                    August 23, 2006
                                                      The Federal Highway Administration (FHWA) recovered a total of
                                                    $20 million in funds from the Tennessee Department of Transportation (T-DOT)



    36              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 37




                           activities


       following an investigation of the Memphis Intermodal Transportation Project. The
       recovery of $11 million from T-DOT occurred on August 23, in addition to
       $9 million recovered on August 4, amounts to a full recovery of $20 million
       in FHWA funds involving the Project. The Memphis Intermodal
       Transportation Project, which was completed in 2004 at a cost of $26 mil-
       lion ($20 million in FHWA funds), was intended for the construction of an
       intermodal transportation center adjacent to the Memphis FedEx Forum.
       The design concept included a transfer facility for transit passengers with
       indoor waiting rooms, vending areas, offices and covered areas for loading
       and unloading passengers. Our investigation and a T-DOT audit, disclosed
       that the 1,700-space parking garage was operated for-profit by a franchise
       of the NBA Grizzlies team, based on an agreement with the City of
       Memphis.

            Two Former NHTSA Employees Ordered to Repay Total of
                  $36,000 for Embezzling From Government
       August 28, 2006
          Beatriz Lorena Villa, a former NHTSA administrative staff assistant was
       ordered by a U.S. District Court judge in Washington, DC to pay $24,000 in
       restitution and serve 48 months probation on embezzlement charges. Between
       December 2001 and March 2004, Villa fraudulently claimed that she and
       another NHTSA staff assistant, Julia Goldson, had worked over 1,000 hours of
       overtime. In fact, the overtime was neither authorized nor performed. Villa
       received about $24,000 and Goldson more than $12,000 as a result of the
       fraudulent overtime claims. Goldson pled guilty to the same charge on
       June 1, and was sentenced on Aug. 17 to repay $12,000 and serve 24 months
       of probation. Both women resigned from NHTSA in October 2004.

       Philadelphia Company and its Owner Ordered to Pay $135,000 in
               Fines and Restitution for DBE Construction Fraud
       August 29, 2006
          Philly-Wide Interiors, Inc. (PWI) and its owner, Daniel Pellicciotti were
       ordered by U.S. District Court judge in Philadelphia, PA to pay $135,000 in
       fines and restitution as a result of their prior guilty plea to charges of bribery



                                                                                            a c t i v i t i e s   37
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 38




                                                    and tax fraud. In March, Pellicciotti and PWI were debarred from participat-
                                                    ing in federal contracts for a term of three years. The investigation revealed
                                                    that Pellicciotti provided money and other things of value to a Philadelphia
                                                    Minority Business Enterprise Council employee in exchange for receiving an
                                                    illicit Disadvantaged Business Enterprise certificate. This certificate was used
                                                    by the defendants to fraudulently obtain SEPTA and other subcontracts for
                                                    demolition and other work. The investigation was worked jointly with the FBI,
                                                    DOL-OIG, DOC-OIG and IRS Criminal Investigations.

                                                    Two Former Employees of a Big Dig Subcontractor Plead Guilty to
                                                                      Fraud-Related Charges
                                                    August 30, 2006
                                                        Richard Joyce and Brian Di, former assistant project managers for Mass
                                                    Electric Construction Company (MECC), a subcontractor on the Central
                                                    Artery Tunnel/Project’s tunnel finishes contract, pled guilty in U.S. District
                                                    Court in Boston, MA to one count of conspiracy to commit fraud each for their
                                                    involvement in a scheme to misclassify apprentice-level electricians as journey-
                                                    men electricians, with a higher hourly pay rate, on daily reports used to com-
                                                    pile costs for time and materials change orders. The practice began in 2003 and
                                                    continued through June 2005. The company’s subcontract included the instal-
                                                    lation of electrical conduit and wiring in the tunnel. The approximate loss to
                                                    the government is $100,000. This investigation was conducted with the DOL-
                                                    OIG.

                                                     Former Florida Division of Motor Vehicles (DMV) Employee and
                                                         a Florida Resident Sentenced for Conspiring to Produce
                                                                   Fraudulent Identification Documents
                                                    August 31, 2006
                                                       On August 31, 2006, Denice Morris, a former driver’s license examiner
                                                    for the Florida DMV was sentenced in U.S. District Court in Miami, FL, to
                                                    6 months home confinement to be followed by 3 years supervised release.
                                                    Allen Silberman of Miami, FL, received a sentence of 5 months home con-
                                                    finement to be followed by 2 years supervised release. On June 21, Morris
                                                    and Silberman pled guilty to three felony counts of conspiring to produce
                                                    fraudulent identification documents. Our investigation found that Morris
                                                    used her position at the DMV to fraudulently process an application for a
                                                    Florida identification card for an individual who she believed to be an illegal
                                                    alien (but who was actually a confidential government informant in the inves-
                                                    tigation) and that Silberman facilitated the scheme by providing a fraudulent




    38              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 39




                           activities


       social security number and immigration documents. The informant paid
       $2,500 for the fraudulent identification document. This was a joint investi-
       gation with the FBI.

            Wisconsin Student Pilot Pleads Guilty to Submitting a False
                                  Statement
       August 31, 2006
          David Allen DeSantis pled guilty in U.S. District Court in Milwaukee,
       WI, to charges of submitting a fraudulent statement on a FAA application
       for an airman medical and student pilot certificate in August 2001. The
       investigation revealed that DeSantis failed to disclose his criminal convic-
       tion records in his application form, as required by law, and was subse-
       quently issued a Student Pilot Certificate. DeSantis has an extensive crim-
       inal history. DeSantis has turned in his expired student pilot certificate and
       pilot logbook and is scheduled for sentencing on December 2, 2006. This
       case was investigated with assistance from the FAA.

         Results of OIG Investigation of 9/11 Commission Staff Referral
       August 31, 2006
          We issued a report on the results of our review from a referral made by the
       9/11 Commission staff regarding certain inaccurate statements made by FAA
       officials regarding their notifications to DOD during the September 11 hijack-
       ings. Our investigation included examining whether FAA officials knowingly
       made any false statements. In brief, we did not find evidence to conclude that
       FAA officials knowingly made false statements, purposely omitted accurate
       information from any statement, or intentionally failed to correct an inaccurate
       statement after becoming aware of it. However, during our investigation we
       discovered that three FAA executives did not act to correct an erroneous FAA
       response to a Commission Question for the Record (QFR) after learning it was
       inaccurate. As a result, we have recommended to the FAA Administrator that
       FAA correct its QFR response and consider appropriate administrative action
       for two current executives. Our other recommendations to the Administrator
       include enhancing FAA’s capability to respond to and report on hijacked or
       suspicious aircraft.




                                                                                          a c t i v i t i e s   39
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 40




                                                                          Operation Safe Road:

                                                       Former Illinois Governor Sentenced to 6 Years in Prison and

                                                                  Ordered to Pay $603,348 in Restitution

                                                    September 6, 2006
                                                         Former Illinois Governor George Ryan was sentenced in U.S. District
                                                    Court in Chicago, IL to 78 months in prison and ordered to pay $603,348 in
                                                    restitution as a result of his conviction on charges of racketeering, conspiracy,
                                                    mail and tax fraud and making false statements. Lawrence Warner, Ryan’s long-
                                                    time personal associate and a businessman/lobbyist in Chicago, IL, was sen-
                                                    tenced to 41 months in jail and ordered to pay fines and restitution totaling
                                                    $1.7 million. A federal jury convicted the two men on April 17, 2006.
                                                    Specifically, Ryan was found guilty of for receiving illegal cash payments and
                                                    gifts, vacations and personal services for himself and his family while serving as
                                                    Illinois Secretary of State from 1991 to 1999 and as Governor from 1999 to
                                                    2003. Additionally, on May 11, Donald A. Udstuen was sentenced to eight
                                                    months in prison and was fined $30,000 for committing tax fraud. Udstuen,
                                                    a former board member of Metra (the commuter rail system serving northeast
                                                    Illinois) and a top lobbyist for the Illinois State Medical Society, was also a
                                                    political adviser to Ryan. Udstuen has cooperated in the investigation. The
                                                    underlying joint-agency investigation ‘Operation Safe Road’ initially focused
                                                    on bribes in exchange for commercial driver’s licenses for unqualified truck
                                                    drivers when Ryan was the Secretary of State. The investigation subsequently
                                                    expanded to include political corruption and led to the indictment and subse-
                                                    quent convictions of several of Ryan’s top aides and associates. The investiga-
                                                    tion was worked jointly with the FBI, IRS and USPS.

                                                    Audit of the Mississippi Department of Transportation’s (MDOT)
                                                    Award of Selected Hurricane Katrina Emergency Repair Contracts
                                                    September 6, 2006
                                                                       We issued a report on our audit of MDOT’s management
                                                                    of the award of selected Hurricane Katrina emergency repair
                                                                    Federal-aid contracts. Our audit objectives were to determine
                                                                    whether MDOT’s emergency repair contract award processes
                                                                    were consistent with applicable Federal and state procurement
                                                                    requirements and whether prices received were fair and rea-
                                                                    sonable under the emergency conditions that resulted from
                                                                    Hurricane Katrina. Despite the catastrophic conditions creat-
                                                                    ed by Hurricane Katrina, we found that the FHWA and
                                                                    MDOT officials worked together to ensure MDOT’s emer-
                                                                    gency repair contract award processes were generally consistent



    40              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 41




                           activities


       with Federal and state procurement requirements. However, we also found
       that the lack of standard construction contract provisions caused MDOT to
       award some contracts without the assurance of fair and reasonable prices.
       Further, we found that FHWA should strengthen its Emergency Relief Manual
       and the related Federal regulations to better assist states in awarding emergency
       repair contracts. FHWA concurred with our recommendations and agreed to
       take corrective actions.

        Letter to Representative Oberstar Regarding FAA’s Aging Airplane
                                   Safety Rule
       September 7, 2006
          We issued the results of our review of FAA’s implementation of the Aging
       Airplane Safety Rule. This review was conducted at the request of
       Representative James Oberstar, Ranking Member of the House Committee on
       Transportation and Infrastructure. Our review determined that while FAA and
       the industry have made important progress in implementing procedures for
       monitoring the aging aircraft fleets for larger air carriers, more work needs to
       be done to protect the safety of cargo operators and passengers flying on small-
       er aircraft.

          Former Employee of Asbestos Monitoring Company Jailed for
           Violating the Clean Air Act on a FAA-Funded Airport Project
       September 15, 2006
          John Toner, a former employee of Comprehensive Employment
       Management (CEM), pled guilty in U.S. District Court in Buffalo, NY,
       to one count of violating the Clean Air Act. Toner was fined $1,000 and
       sentenced to serve 7 months in prison. Toner was charged with making
       false statements for not truthfully reporting on the illegal removal of
       asbestos; however, he ultimately pled guilty to a one count violation of
       the Clean Air Act, Negligent Release of Asbestos into the Air. Toner was
       responsible for ensuring that asbestos removed by USA Remediation
       Services (USAR) during a demolition project from the $4 million FAA-
       funded Buffalo-Niagara Airport expansion was done in compliance with
       all federal and state regulations. USAR workers, however, improperly



                                                                                           a c t i v i t i e s   41
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 42




                                                    removed asbestos from pipes. In September 2002, several USAR employees
                                                    were charged and were subsequently sentenced for improper removal of
                                                    asbestos from the expansion project. In February 2006, USAR was fined
                                                    $500,000 and placed on 3 years probation for violating the Clean Air Act.
                                                    This investigation was worked jointly with the EPA-CID, FBI, OSHA, and
                                                    New York State Department of Environmental Conservation.

                                                         Report on Integrity Threats to Hazardous Liquid Pipelines
                                                    September 18, 2006
                                                       We issued a report on Integrity Threats to Hazardous Liquid Pipelines. We
                                                    found that hazardous liquid pipeline operators had repaired all 409 threats we
                                                    examined, with about 98 percent of the repairs completed within established
                                                    timeframes. While progress is being made in identifying, repairing, and over-
                                                    seeing integrity threats, several challenges still remain. These include the need
                                                    to improve the accuracy of operator annual reports submitted to the Office of
                                                    Pipeline Safety and to ensure the effective use of pipeline inspection technolo-
                                                    gy (smart pigs). The Pipeline and Hazardous Materials Safety Administration
                                                    agreed with both of our recommendations and took action to meet the intent
                                                    of our recommendations.

                                                               Observations on FAA’s Oversight of Aviation Safety
                                                    September 20, 2006
                                                                     The Acting Inspector General testified before the House
                                                                  Transportation Aviation Subcommittee regarding aviation safety.
                                                                  The Acting IG’s testimony highlighted three areas that charac-
                                                                  terize the current aviation safety landscape and current chal-
                                                                  lenges. First, FAA is making progress in using risk-based systems
                                                                  to carry out its safety oversight mission but a lot of work remains.
                                                                  Second, there are several key trends and issues that need FAA’s
                                                                  attention, such as determining the type of work performed by
                                                                  non-certificated repair facilities and determining inspector
                                                                  staffing needs. Third, FAA must continue to emphasize and
                                                                  address the risks of runway incursions and operational errors.


                                                              Audit of FAA’s RESULTS National Contracting Service
                                                    September 21, 2006
                                                       We issued a report on FAA’s RESULTS National Contracting Service, a pro-
                                                    curement program established to acquire support services. This audit was
                                                    requested by the Chairman of the Senate Committee on Finance and the




    42              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 43




                           activities


       Chairman of the Senate Homeland Security and Governmental Affairs
       Subcommittee on Federal Financial Management, Government Information,
       and International Security. We found that the program was not properly struc-
       tured to meet FAA’s needs for faster, cheaper, and better acquisition of support
       services. Additionally, FAA officials did not award contracts with sufficient
       competition or adequate price analysis, and deficiencies existed in the adminis-
       tration of individual contracts. Although FAA took steps during our audit to
       improve the procurement program by requiring additional executive oversight
       and training, we recommended that the Agency dissolve the procurement pro-
       gram due to its structural weaknesses and implement additional procedures and
       controls to improve oversight of all support services contract. FAA generally
       concurred with our recommendations and is taking actions that, when fully
       implemented, will address the problems discussed in the report.

           Former Company Official and Consultant Plead Guilty in
        Corruption Scheme Involving Philadelphia International Airport
                           Concession Contracts
       September 27, 2006
          Joseph Evans, former CEO of Sky Sites, Inc., and Joseph Moderski, a con-
       sultant of Sky Sites, pled guilty in U.S. District Court, Philadelphia, PA, to
       criminal charges related to a corruption scheme involving FAA-regulated air-
       port advertising contracts at the Philadelphia International Airport. Evans pled
       guilty to mail fraud charges outlined in a superseding indictment filed on
       September 27. In February 2006, Evans, Moderski, and two other individuals
       (Eric Selby, former Regional Vice-President for Sky Sites, and Terry F.
       Crockett, an owner of an architectural firm) were charged with conspiracy, mail
       fraud, and wire fraud. In March 2006, Crockett and Selby pled guilty to con-
       spiracy and wire fraud charges. During the investigation, Selby admitted that
       the conspirators used Sky Sites to illegally fund $30,000 in contributions to
       political action committees that supported the Mayor of Philadelphia because
       they thought that the payment would help them to secure contracts at the
       Airport. Moderski, Evans, and Selby also pled guilty to having Sky Sites pay
       Moderski a $10,000 sham consulting bonus to disguise the use of corporate
       funds for another illegal political contribution. This investigation was part of a




                                                                                            a c t i v i t i e s   43
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 44




                                                    wide-ranging corruption probe in Philadelphia, which revealed that a former
                                                    fundraiser for the Mayor, now deceased, controlled the political action com-
                                                    mittee that received these illicit contributions. The case was investigated by
                                                    OIG, FBI and IRS Criminal Investigations.

                                                          FAA’s Management and Controls Over Memorandums of
                                                                 Understanding (MOUs): Follow-up Review
                                                    September 28, 2006
                                                       We issued a report on our follow-up audit of FAA’s management and con-
                                                    trols over MOUs. The review was conducted at the request of the House
                                                    Subcommittee on Transportation Appropriations in the accompanying report
                                                    for the Department of Transportation’s FY 2006 appropriations. Our objec-
                                                    tive was to determine whether FAA’s newly established internal policies and
                                                    procedures have been effective in improving the Agency’s management of and
                                                    controls over MOUs. We found that the policies and procedures established
                                                    by FAA in June 2003 have provided the Agency with substantially improved
                                                    controls over its MOU process.




    44              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM    Page 45




                            Restoring the Public’s Confidence in Boston’s
                                    Central Artery/Tunnel Project



        O
                 n July 10, 2006, 22 tons of concrete ceiling panels broke loose in the Central Artery/Tunnel (CA/T) Project in
                 Boston, Massachusetts, and fell onto the roadway. The impact crushed a car passing below, instantly killing
                 one passenger and injuring another. The National Transportation Safety Board arrived shortly thereafter and
        began its own independent investigation of the tunnel collapse. After the accident, key tunnels were closed to traffic
        and a phased series of safety reviews and repairs are being conducted before they reopen. In addition, the Governor
        of Massachusetts called for a separate comprehensive “Stem to Stern” review of the entire CA/T Project (Project). A
        week after the accident the Massachusetts U.S. Congressional delegation and the Office of the Secretary of
        Transportation requested that OIG provide independent oversight of these safety-related activities. In response to
        these requests, the OIG has redeployed resources and dedicated a team of auditors, engineers, and investigators to
        provide this oversight.

        CA/T’s Troubled History
           The CA/T was designed to replace
        Boston’s deteriorating elevated highway
        system with an underground expressway
        and extend the Massachusetts Turnpike to
        Logan Airport. It is the largest federally
        funded public works project in recent his-
        tory. The Project has had a long history of
        ballooning costs and construction delays.
        Project costs have increased dramatically
        from an original estimate of $2.6 billion in
        1985 to the most recent cost projection of
                                                                             Boston, MA — Collapsed section of the I-90 eastbound tunnel.
        $14.625 billion. Federal investment in the
                                                                                                 Photo by Matthew West, Boston Herald.
        Project has been capped at $8.549 billion.
        The Project was originally scheduled to be completed in December 1998, but was substantially completed in January 2006.
        We have issued over 20 reports on the CA/T Project since the 1990s. In the past, we have also found instances of poor
        quality construction and fraudulent activity. For example, in April 2005, we testified on significant water leaks in the
        CA/T tunnels and noted that the oversight of its construction was lacking. Additionally, OIG investigators have found
        instances of fraud in the construction of the Project.

        OIG Activities to Reestablish the Public’s Confidence in the Tunnels’ Safety
           The recent fatal accident and past water leaks highlight failures in construction quality and the need for FHWA to
        take additional steps to ensure the safety of the Nation’s highway infrastructure. The magnitude of this oversight
        effort, as well as the intense public concern for the safety of this massive project, presents a significant challenge to
        the Department of Transportation far beyond its normal oversight role. Accordingly, we have undertaken a compre-
        hensive range of oversight activities:
        ■ Monitoring reopening activities for CA/T ramps and tunnels. The OIG’s ongoing oversight of the phased tunnel
        reopenings is focusing on tunnel areas which pose the greatest risk to the traveling public. Oversight has occurred in



                                                                                           f o c u s                                        45
FINAL SAR 12-21-06.qxd     1/10/2007     10:19 AM        Page 46




      overlapping phases, including reviewing the
      methodology for reopening activities to
      ensure that it is clear and comprehensive, the
      results of engineering analyses to ensure that
      they comply with the methodology, and the
      conditions under which the roadways are
      reopened to minimize risks. For example, we
      recommended, and the Commonwealth has
      implemented, an interim plan to conduct fre-
      quent measurements that will, through the
      early identification of any moving ceiling
      panel components, mitigate the risk of anoth-
      er collapse in the reopened Ted Williams
      Tunnel.
      ■ Evaluating the Stem to Stern Effort. The
      OIG is also assessing the adequacy of the
      Commonwealth’s comprehensive “Stem to
      Stern” safety review of the structural and life safety systems of the Boston metropolitan highway system. To assist
      with this effort, a team from the Army Corps of Engineers is providing specialized engineering expertise to the OIG.
      Our efforts in providing oversight have helped to ensure the comprehensiveness of the safety review by identifying
      deficient areas that otherwise may have been overlooked. We will continue to monitor the safety review effort
      through its two phases, the first of which is expected to be completed by mid-November 2006.
      ■ Taking Action to Detect and Prevent Fraud. OIG investigators are actively working with the United States Attorney
      and the Massachusetts Attorney General to support their ongoing work.
      ■ Other OIG Work on the CA/T Project. The OIG will evaluate the impact of the ceiling collapse and subsequent reme-
      diation on the CA/T Project’s finances. In 2000, Congress directed the Secretary of Transportation to withhold obliga-
      tions of Federal funds until the OIG completes its review of the CA/T Project Finance Plan. There is $81 million in unob-
      ligated Federal funds remaining for the Project. Once the Commonwealth of Massachusetts submits a revised project
      finance plan, we will review it to ensure that it reflects any additional costs to fix problems identified by the various
      safety reviews.


      The Challenge for FHWA
        The safety problems that surfaced in the Central/Artery Tunnel Project also call into question the oversight and qual-
      ity control processes for constructing and maintaining major highway projects. In light of the known problems of the
      Central Artery tunnels, FHWA should develop and implement a system to ensure that states inspect and periodically
      report on the condition of the Nation’s tunnels. FHWA should begin by promptly determining whether a rulemaking
      or additional legislative authority is necessary for this action.




      46                 Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 47




                 other

            accomplishments


      T
                 his section highlights other accomplishments and contributions by
                 Office of Inspector General staff that extend beyond the legal report-
                 ing requirements of the Inspector General Act. These accomplish-
       ments are part of our statutory responsibilities to review existing and proposed
       legislation and regulations; respond to congressional and departmental
       requests for information; and review policies for ways to promote effectiveness
       and efficiency and detect and prevent fraud, waste, and abuse.
       Accomplishments not directly related to audit and investigative reports during
       this semiannual reporting period are also highlighted below, including results
       of oversight activities carried out in connection with hurricane relief and recov-
       ery efforts in the U.S. Gulf Coast states.

       FAA’S WESTERN PACIFIC REGION GRANTS MANAGEMENT
          At the request of FAA’s Airports Office, we conducted a limited review of
       FAA’s Western Pacific Region grants management. After reviewing 40 closed
       Airport Improvement Program (AIP) grant files, we briefed FAA Headquarters
       and Regional Officials on steps the Agency could take to improve AIP grants
       management. In particular, we suggested that the Western Pacific Region
       Airports Division could improve compliance with the AIP Handbook and
       other FAA guidance by (1) more actively monitoring regional grant activities,
       such as awards, drawdowns, amendments, and closeouts; (2) using Agency
       accounting databases to track key warning indicators, such as inactive grants,
       premature disbursements, multiple grants or closeouts per project, and a 4-year
       closeout performance measure; (3) conducting quarterly reviews to ensure that
       projects are completed before closeout, closeouts are timely, amendments are
       processed, and excess funds are promptly de-obligated; and (4) issuing formal
       guidance with respect to using competitive bids in determining grant awards.
       FAA Headquarters and Regional Officials concurred with each of these sug-
       gestions and are developing a national policy to address the issues.

       INFORMATION TECHNOLOGY SECURITY AND PRIVACY BRIEFING
          The Assistant Inspector General for Financial and Information Technology
       provided the annual briefing on major information technology security and pri-
       vacy issues to the President’s Council on Integrity and Efficiency-the coalition
       of presidentially appointed Inspectors General. The Assistant Inspector General



                                                                                            other accomplishments   47
FINAL SAR 12-21-06.qxd     1/10/2007     10:19 AM        Page 48




                                                         also represented the IG community’s interests at the Information Security and
                                                         Privacy Advisory Board, which is tasked to advise the Office of Management
                                                         and Budget and the National Institute of Standards and Technology on infor-
                                                         mation technology issues.

                                                         PROPOSED LANGUAGE FOR THE RESPOND ACT OF 2006
                                                            At the request of House of Representatives Transportation and
                                                         Infrastructure Committee staff, the OIG provided technical drafting assistance
                                                         on the oversight and accountability sections of the bipartisan “Restoring
                                                         Emergency Services To Protect Our Nation From Disasters (RESPOND) Act
                                                         of 2006.” The Committee’s staff asked for suggestions, based on our experi-
                                                         ence in reviewing DOT’s response to Hurricanes Katrina and Rita, to identify
                                                         best practices and mechanisms that could be implemented governmentwide to
                                                         help guarantee effective stewardship of monies provided through Federal
                                                         Emergency Management Agency (FEMA) mission assignments. The OIG sub-
                                                         mitted suggestions focused on designing management oversight activities to
                                                         ensure that Federal funds are appropriately spent for their intended purpose
                                                         and to fully protect the taxpayers’ interests.

                                                         RESOLVED QUESTIONED BOLTS ISSUE
                                                            Working with FHWA, FMCSA, and Louisiana state officials, OIG special
                                                         agents helped ensure motorist safety by reviewing an allegation that over
                                                                             400 bolts used to temporarily repair the hurricane-dam-
                                                                             aged I-10 Twin Spans Bridge in New Orleans were
                                                                             defective. Specifically, we found that trucks overloaded
                                                                             with debris from hurricane clean up efforts were speed-
                                                                             ing across the temporarily repaired bridge, which was
                                                                             not designed to handle the related stresses, thereby
                                                                             resulting in broken bolts. After tests requested by the OIG
                                                                             proved that the bolts met contract specifications for the
                                                                             Federal-aid project, OIG agents worked with Louisiana
                                                                             Department of Transportation and Louisiana State Police to
                                                                             lower bridge weight and speed limits. Subsequent increased
                                                                             enforcement (24 hours per day, 7 days a week) of these new
                                                         limits helped reduce the number of broken bolts and eliminate potentially seri-
                                                         ous safety concerns.

                                                         FREED UP DISASTER RELIEF FUNDING
                                                           As a result of an OIG-suggested review, the Department’s Assistant
                                                         Secretary for Budget and Programs /Chief Financial Officer identified nearly
                                                         $41 million in excess FEMA Gulf Coast Hurricane funding that could be de-



      48                 Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 49




       obligated and made available for other disasters. Specifically, these monies were
       for various Hurricane Katrina, Rita, and Wilma emergency transportation mis-
       sion assignment services requested under the Robert T. Stafford Disaster Relief
       and Emergency Assistance Act. About $27.8 million of the excess funding
       came from the Federal Aviation Administration, $11.7 million from the
       Maritime Administration, and $1.3 million from the Department’s Office of
       the Secretary. Requests to FEMA to process the deobligations have been made
       or are in process.

       DEVELOPED INVESTIGATIVE INTELLIGENCE ON
       HURRICANE KATRINA-RELATED CONTRACTS
          At the request of the U.S. Department of Justice Hurricane Katrina Fraud
       Task Force, the OIG summarized selected information on approximately
       75 hurricane-related acquisition contracts being monitored by the DOT’s
       Senior Procurement Executive. The Task Force, which includes OIG inves-
       tigators, is analyzing this information to identify potential fraudulent activity
       warranting further investigation. The contract information was also forward-
       ed to the U.S. Department of Labor for crosschecking against the Federal
       Insurance Contributions Act and other withholdings databases to identify
       possible indicators of organized crime activities.

       AVOIDED POTENTIAL IMPROPER PAYMENTS
          The OIG alerted FHWA officials to several changes authorized by the
       Louisiana Civil Service Commission to increase flexible special and overtime
       pay for State employees performing work related to Hurricanes Katrina and
       Rita. We advised FHWA officials that OMB guidance did not allow Federal
       reimbursement of these increased costs. In addition, we noted that the U.S.
       Department of Homeland Security Inspector General had stated that
       increased costs resulting from these policy changes were not eligible for reim-
       bursement under any of FEMA’s disaster grant programs. In response,
       FHWA Louisiana Division personnel took action to ensure that these costs
       were not reimbursed through the FHWA Emergency Relief Program. For
       example, the Acting Division Administrator formally notified the Secretary of
       the Louisiana Department of Transportation that the increased compensation
       authorized by the Commission was not eligible for Emergency Relief Program
       reimbursement.

       STRENGTHENED OVERSIGHT OF REIMBURSABLE EXPENDITURES
          The OIG briefed officials from DOT’s Office of Intelligence, Security, and
       Emergency Response, FAA, and FEMA on our concerns about the sufficiency
       of Defense Contract Audit Agency coverage of the Department’s $800 million



                                                                                           other accomplishments   49
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 50




                                                    emergency transportation services contract. The contract supports DOT’s
                                                    responsibilities during national emergencies (e.g., the 2005 hurricane sea-
                                                    son). Based on OIG results, officials from the three different offices agreed
                                                    to work together to (1) ensure comprehensive audits of the reasonableness
                                                    of prices and costs for reimbursable delivery orders issued against the DOT
                                                    contract and (2) modify language in existing and future mission assignments
                                                    between DOT and FEMA to include contract audits as reimbursable tasks as
                                                    opposed to having contract audit costs funded from FAA appropriations.

                                                    IMPROVED PURCHASE CARD TRANSACTION REPORTING
                                                       Based on OIG-identified concerns regarding the reliability and reasonable-
                                                    ness of DOT hurricane-related purchase card transaction reporting, DOT’s
                                                    Senior Procurement Executive took immediate actions to enhance the accura-
                                                    cy and completeness of departmental reporting. Specifically, using sophisticat-
                                                    ed data analytics software, OIG auditors identified potentially significant
                                                    underreporting of Operating Administrations’ purchase card transactions for
                                                    the 2005 Gulf Coast Hurricane relief efforts. The OIG shared the information
                                                    with departmental procurement and financial managers, who confirmed the
                                                    underreporting and implemented new policies and strategies to eliminate it.
                                                    As a result, the reporting of hurricane-related purchase card expenditures
                                                    increased about 193 percent, from $410,000 in December 2005 to over
                                                    $1.2 million in August 2006.




   50               Semiannual Report to Congress
FINAL SAR 12-21-06.qxd        1/10/2007   10:19 AM   Page 51




                 charts & tables


       Summary of Performance
       Office of Inspector General
       April 1–September 30, 2006

       Reports issued                                                     32

       Recommendations Issued                                             85

       Congressional Testimonies                                           6

       Total financial recommendations                         $   95,379,323

         — that funds be better used                           $   36,193,000

         — that questioned costs                               $   59,186,323

       Indictments                                                        84

       Convictions                                                        69

       Fines, restitutions, recoveries                         $   26,120,354




                                                                                c h a r t s   &   ta b l e s   51
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM    Page 52




                                                   INVESTIGATIONS

                                                   Judicial and Administrative Actions
                                                   April 1–September 30, 2006

                                                   Employee Terminations                                                      5

                                                   Employee Suspensions                                                       3

                                                   Employee Reprimand                                                         1

                                                   Employee Resignations/Retirements                                          1

                                                   Employee Counseling                                                        7

                                                   Debarments/Suspensions                                                    56

                                                   Certificates/License suspended/revoked/terminated                          4



                                                   Indictments                                                               84

                                                   Convictions                                                               69

                                                   Years Sentenced                                                           56

                                                   Years Probation                                                           74

                                                   Years Supervised Release                                                  55

                                                   Hours of Community Service                                              1100

                                                                                       Financial Impact
                                                   Fines                                                               $1,959,975

                                                   Restitution/Civil Judgments                                         $3,464,022

                                                   Federal Recoveries                                                   $436,260

                                                   Administrative Recoveries                                          $20,009,968

                                                   State Recoveries                                                     $250,129

                                                   Total                                                             $26,120,354




                                                   D
                                                             uring the 6 month period covered by this report, 78 cases were
                                                             opened and 88 were closed, leaving a pending caseload of 575. In
                                                             addition, 136 cases were referred for prosecution, 102 were accept-
                                                   ed for prosecution, and 61 were declined. As of September 30, 2006, 39 cases
                                                   were pending before prosecutors.

    52             Semiannual Report to Congress
FINAL SAR 12-21-06.qxd          1/10/2007     10:19 AM       Page 53




      Profile of All Pending Investigations
      As of September 30, 2006
                                                                                                 Types of Cases

                                                               Number      Contract/    Employee       Aviation   Motor Carrier
                                                               of Cases   Grant Fraud    Integrity      Safety       Safety     Hazmat          Other
      Operating Administration

      Federal Aviation Administration                              223        46            66            95          0          8             8
      Federal Highway Administration                               154       140             7            0           0          0             7
      Federal Railroad Administration                               14        2              5            0           0          4             3
      Federal Transit Administration                                33        30             3            0           0          0             0
      Maritime Administration                                       5         2              2            0           0          0             1
      Federal Motor Carrier Safety Administration                   89        3              9            0          49          20            8
      Office of the Secretary                                       20        3             11            0           0          0             6
      Pipeline and Hazardous Materials Safety Administration        23        0              1            0           0          22            0
      Research and Innovative Technologies Administration           2         2              0            0           0          0             0
      National Highway Traffic Safety Administration                10        3              3            0           1          0             3
      St. Lawrence Seaway Development Corporation                   1         0              1            0           0          0             0
      National Transportation Safety Board                          1         0              1            0           0          0             0
      Totals                                                       575       231           109            95         50          54           36
      Percent of Total:                                            100%      40%           19%           17%         9%         9%            6%




       Application of Investigative Project Hours by Priority Area
       April 1–September 30, 2006
                                                                                                                                 Hazmat Safety 4%


                                                                                                                                 Employee Integrity 9%
                                        Contract/Grant Fraud 47%




                                                                                                                                 Motor Carrier Safety 10%




                                                                                                                                 Aviation Safety 12%




                                                                                                                                 Other 18%


       Note: May not equal 100 percent due to rounding.


                                                                                                       c h a r t s    &   ta b l e s                   53
FINAL SAR 12-21-06.qxd      1/10/2007       10:19 AM       Page 54




    Status of Unresolved Investigations Recommendations
    April 1–September 30, 2006

       Associated
        Operating
      Administration     Recommendation(s)                                                                                                   Status



                                    For Semiannual Report Period of April 1, 2005–September 30, 2005

         OST/OCIO        That OCIO account for all missing invoices and review costs for reasonableness on an                          Working with OST/OCIO
                         inappropriately expanded and inadequately managed subcontract for consulting services.                        to resolve open issues


         OST/OCIO        That OCIO review other contracts and task orders for deficiencies in award and oversight                      Working with OST/OCIO
                         (e.g., excessive numbers/dollar value of modifications or modifications finalized after performance)          to resolve open issues
                         with corrective action taken on those found.


           RITA          That RITA (a) disallow all or part of the matching contributions of a university [a grantee under RITA’s        Working with RITA
                         University Transportation Center (UTC) Program] for building construction costs misrepresented by the         to resolve open issues
                         university as a “matching asset” under the grant; and (b) that RITA recoup the corresponding grant
                         funding or require the university to provide appropriate matching contributions.


           RITA          That RITA request that the Department of Health and Human Services review the university’s matching             Working with RITA
                         contributions in its next scheduled audit of the university.                                                  to resolve open issues


           RITA          That RITA develop and disseminate clear guidelines for determining if matching contributions under the          Working with RITA
                         UTC Program comply with OMB Circular A-110 and 49 CFR 19.                                                     to resolve open issues


           FAA           That FAA (a) work with the Social Security Administration and other disability benefits providers               Working with FAA
                         to develop a strategy to (i) identify certificated pilots nationwide who are receiving medical disability     to resolve open issues
                         benefits from any provider, and (ii) determine whether the documented medical conditions of those
                         disability recipients would disqualify them from maintaining their Airman Medical Certificates; and
                         (b) take appropriate certificate enforcement action where falsifications are found.


           FAA           That FAA consider revising its Application for Airman Medical Certificate to require                            Working with FAA
                         applicants to explicitly identify whether they are receiving medical disability benefits from any provider.   to resolve open issues




    54                 Semiannual Report to Congress
FINAL SAR 12-21-06.qxd          1/10/2007       10:19 AM       Page 55




       Application of Investigative Project Hours by Operating Administration
       April 1–September 30, 2006
                                                                                                                                                         Other 5%

                                                                                                                                                         FTA 8%


                                                             FHWA 31%


                                                                                                                                                         FMCSA 13%




                                                                                                                                                         OST 22%
                                                               FAA 22%




       Completed OIG Reports
       April 1–September 30, 2006
       (Dollars in Thousands)*

                                                                     Number of                 Number of                  Questioned             Funds to Be Put
       Type of Review                                                 Reports               Recommendations                Costs**                to Better Use
       Internal Audits
       — Performance/Attestation Audits                                   11                          39                     $1,400                 $36,193
       — Financial Audits                                                  1                          12                     $0                     $0

       Total Internal Audit Reports                                       12                          51                     $1,400                 $36,193
       Grant Audits
       — Audits of Grantee Under Single Audit Act                         20                          34                     $57,786                $0

       Totals                                                             32                          85                     $59,186                $36,193

       *The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
       **There were no recommendations for unsupported costs during the reporting period.
       Department of Transportation programs and operations are primarily carried out by the Department’s own personnel and recipients of Federal grants. Audits by
       DOT’s Office of Inspector General, as a result, generally fall into three categories: internal audits of Departmental programs and operations, audits of grant recipi-
       ents, and other OIG reports. The table above shows OIG’s results in the three categories for the 6 months covered by this report.




                                                                                                                      c h a r t s         &    ta b l e s                       55
FINAL SAR 12-21-06.qxd            1/10/2007        10:19 AM   Page 56




    OIG Reports with Recommendations That Questioned Costs
    April 1–September 30, 2006
     (Dollars in thousands)
                                                                        Number of            Number of        Questioned
                                                                         Reports          Recommendations       Costs*
    Reports
    A     For which no management decision had been made
          by the start of the reporting period                             20                   26              $14,301

    B     Which were issued during the reporting period                    18                   32              $59,186

    Totals (A+B)                                                           38                   58              $73,487

    C     For which a management decision was made during
          the reporting period                                             13                   18              $11,152

          (i) dollar value of disallowed costs**                            7                    9              $6,642

          (ii) dollar value of costs not disallowed**                       7                   10              $4,530

    D     For which no management decision had been made
          by the end of the reporting period                               25                   40              $62,335

    *There were no recommendations for unsupported costs during the reporting period.
    **Includes reports and recommendations where costs were both allowed and disallowed




    OIG Reports with Recommendations That Funds Be Put to Better Use

    April 1–September 30, 2006
     (Dollars in thousands)
                                                                        Number of            Number of      Funds to Be Put
                                                                         Reports          Recommendations    to Better Use
    Reports
    A For which no management decision had been
      made by the start of the reporting period                             4                    6             $1,743,500
    B Which were issued during the reporting period                         2                    3             $36,193

    Totals (A+B)                                                            6                    9             $1,779,693

    C For which a management decision was made
      during the reporting period                                           3                    3             $46,993

         (i) dollar value of recommendations that were
         agreed to by management *                                          3                    3             $39,049

         (ii) dollar value of recommendations that were
         not agreed to by management *                                      1                    1             $7,944

    D For which no management decision had been made
      by the end of the reporting period                                    4                    6             $1,732,700


    *Includes reports and recommendations where costs were both allowed and disallowed.



    56                     Semiannual Report to Congress
FINAL SAR 12-21-06.qxd         1/10/2007     10:19 AM      Page 57




       OIG Reports Recommending Changes for Safety, Economy, or Efficiency
       April 1–September 30, 2006
                                                                              Number of                Number of
                                                                               Reports              Recommendations
       Reports
       A   For which no management decision had been
           made by the start of the reporting period                               40                       147

       B   Which were issued during the reporting period                           12                       50

       Totals: (A+B)                                                               52                       197

       C   For which a management decision was made
           during the reporting period*                                            25                       88

       D   For which no management decision had been made
           by the end of the reporting period*                                     30                       109



       * Includes reports where management both made and did not make a decision on recommendations.




      Management Decisions Regarding OIG Recommendations

      April 1–September 30, 2006
      (Dollars in thousands)
                                                             Number of              Number of                     Questioned         Funds to Be Put
                                                              Reports            Recommendations                    Costs*            to Better Use
      Description
      Unresolved as of 04/01/06                                  54                       179                      $14,301             $1,743,500
      Audits with Findings During Current Period                 27                       85                       $59,186             $36,193
      Total to be Resolved                                       81                      264                       $73,487             $1,779,693
      Management Decisions:
      — Audits Prior Period‡                                     23                       66                       $11,152             $12,500
      — Audits Current Period‡                                   9                        43                       $0                  $34,493
      Total Resolved                                             32                      109                       $11,152             $46,993
      Aging of Unresolved Audits: **
      Less than 6 mos. old                                       19                       42                       $59,186             $1,700
      — 6 mos.–1 year                                            10                       23                       $1,050              $0
      — 1 year–18 mos.                                           6                        17                       $21                 $975,000
      — 18 mos.–2 years                                          9                        34                       $1,722              $0
      — Over 2 years old                                         8                        39                       $356                $756,000
      Unresolved as of 09/30/06                                  52                      155                       $62,335             $1,732,700

      *There were no recommendations for unsupported costs during this reporting period.
      ‡Includes reports and recommendations where costs were both allowed and disallowed.
      **Considered unresolved if management decisions have not been made on all report recommendations.



                                                                                                           c h a r t s      &   ta b l e s             57
FINAL SAR 12-21-06.qxd     1/10/2007      10:19 AM        Page 58




    Office of Inspector General Published Reports
    April 1–September 30, 2006
         Report        Date                                              Title                                                     Focus of Report/
                                                                                                                                  Recommendations
    FEDERAL AVIATION ADMINISTRATION
    Internal Audits: Performance/Attestation–7 reports

    AV-2006-047    04/27/06     FAA Telecommunications Infrastructure Program: FAA Needs to Take Steps to Improve         Master schedule and transition plan
                                Management Controls and Reduce Schedule Risks                                             needed to execute FTI transition

    CR-2006-049    05/19/06     Small Community Aviation Delays and Cancellations (also listed under Office of the        Length of flight delays longer and
                                Secretary)                                                                                cancellation rates higher for small
                                                                                                                          communities
    AV-2006-050    06/21/06	    Report on the Air Traffic Organization’s Management Controls Over Credit Hours            Insufficient management controls over the
                                                                                                                          earning and use of credit hours

    AV-2006-055    07/11/06	    Report on FAA’s Actions to Address Mold at the Detroit Metropolitan Air Traffic Control   Actions taken to remove mold but more
                                Tower Facility                                                                            work needed to alleviated moisture
                                                                                                                          sources
    AV-2006-056    08/03/06     Use of Airport Revenues by the Greater Orlando Aviation Authority                         Put $2,193,000 to better use

    FI-2006-072    09/21/06     Federal Aviation Administration’s RESULTS National Contracting Service                    Put $34,000,000 to better use

    AV-2006-074    09/28/06     Follow-Up Audit Report on FAA’s Management Of and Controls Over Memorandums of            Significant progress made in improving
                                Understanding                                                                             controls

    Internal Audits: Financial–1 report

    QC-2006-076    09/29/06	    Quality Control Review of the Report on Controls Over the Enterprise Service Center’s     Strengthen control objective areas to
                                Delphi Financial Management System (also listed under Office of the Secretary)            enhance Delphi operations

    Grant Audits: Audits of Grantee Under Single Audit Act–7 reports

    QC-2006-048    05/01/06     Miami-Dade County Aviation Department, FL                                                 Improve grantee oversight

    QC-2006-053    07/06/06     Virgin Islands Port Authority                                                             $77,925 questioned

    QC-2006-054    07/06/06     Greater Orlando Aviation Authority, FL                                                    Improve grantee oversight

    QC-2006-057    08/29/06     Jefferson County, CO                                                                      $355,000 questioned

    QC-2006-059    08/29/06     State of Minnesota (also listed under Federal Highway Administration)                     $151,000 questioned

    QC-2006-069    09/14/06     Republic of Palau National Government                                                     $67,526 questioned

    QC-2006-070    09/14/06     County of San Bernardino, CA                                                              $225,464 questioned

    FEDERAL HIGHWAY ADMINISTRATION
    Internal Audits: Performance/Attestation–1 report

    MH-2006-065    09/06/06	    Mississippi Department of Transportation’s Award of Selected Hurricane Katrina            $1,400,000 questioned
                                Emergency Repair Contracts




    58               Semiannual Report to Congress
FINAL SAR 12-21-06.qxd    1/10/2007    10:19 AM         Page 59




          Report          Date                                           Title                                                     Focus of Report/
                                                                                                                                  Recommendations
       Grant Audits: Audits of Grantee Under Single Audit Act–8 reports

       QC-2006-059    08/29/06   State of Minnesota (also listed under Federal Aviation Administration)                  $12,568,300 questioned

       QC-2006-060    08/29/06   State of North Carolina                                                                 $33,288 questioned

       QC-2006-061    08/29/06   State of Florida                                                                        $759,358 questioned

       QC-2006-062    08/29/06   State of Vermont (also listed under Federal Transit Administration)                     $586,415 questioned

       QC-2006-063    08/29/06   State of Rhode Island and Providence Plantations                                        $397,828 questioned

       QC-2006-064    08/29/06   State of Montana (also listed under National Highway Traffic Safety Administration)     $14,041,974 questioned

       QC-2006-067    09/14/06   Dallas County, TX                                                                       $145,333 questioned

       QC-2006-075    09/28/06   State of Hawaii, Department of Transportation, Highways Division                        $2,741,137 questioned

       FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
       Internal Audits: Performance/Attestation–1 report

       MH-2006-046    04/21/06   Significant Improvements in Motor Carrier Safety Program Since 1999 Act but             Document all safety violations to aid in
                                 Loopholes for Repeat Violators Need Closing                                             identifying patterns of violations

       Grant Audits: Audits of Grantee Under Single Audit Act–1 report

       QC-2006-052    07/06/06   Commonwealth of Puerto Rico Public Service Commission                                   $302,876 questioned

       FEDERAL TRANSIT ADMINISTRATION
       Grant Audits: Audits of Grantee Under Single Audit Act–4 reports

       QC-2006-045    04/20/06   City of Colorado Springs, CO                                                            $984,000 questioned

       QC-2006-062    08/29/06   State of Vermont (also listed under Federal Highway Administration)                     $15,981 questioned

       QC-2006-066    09/07/06   City of El Paso, TX                                                                     $19,564,974 questioned

       QC-2006-073    09/21/06   State of Maryland                                                                       Improve grantee oversight

       NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
       Grant Audits: Audits of Grantee Under Single Audit Act–3 reports

       QC-2006-058    08/29/06   State of Mississippi                                                                    $12,619 questioned

       QC-2006-064    08/29/06   State of Montana (also listed under Federal Highway Administration)                     $4,729,041 questioned

       QC-2006-068    09/14/06   Government of Guam                                                                      $26,284 questioned

       OFFICE OF THE SECRETARY OF TRANSPORTATION
       Internal Audits: Performance/Attestation–2 reports

       CR-2006-049    05/19/06   Small Community Aviation Delays and Cancellations (also listed under Federal Aviation   Length of flight delays and cancellation rates
                                 Administration)                                                                         higher for flights from small communities


                                                                                                            c h a r t s       &     ta b l e s                      59
FINAL SAR 12-21-06.qxd    1/10/2007       10:19 AM      Page 60




    Office of Inspector General Published Reports (continued)
    April 1–September 30, 2006
         Report        Date                                            Title                                                     Focus of Report/
                                                                                                                                Recommendations

    AV-2006-051    06/30/06     Internal Controls Over Payments for Emergency Disaster Relief Transportation Services   Better internal controls needed to ensure
                                                                                                                        Government receives purchased relief
    Internal Audits: Financial–1 report                                                                                 services

    QC-2006-076    09/29/06     Quality Control Review of the Report on Controls Over the Enterprise Service Center’s   Strengthen control objective areas to
                                Delphi Financial Management System (also listed under Federal Aviation                  enhance Delphi operations
                                Administration)

    PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION
    Internal Audits: Performance/Attestation–1 report

    AV-2006-071    09/18/06     Integrity Threats to Hazardous Liquid Pipelines                                         Progress made in addressing pipeline
                                                                                                                        integrity threats; improvements needed in
                                                                                                                        operator reporting accuracy and analysis of
                                                                                                                        inspection data




    Other Audit Work Products
    April 1–September 30, 2006



    I
          n addition to providing a listing of each audit report issued to the Department and statistical tables on the number
          of reports and recommendations issued, OIG completes other types of work products during the semiannual period
          that contribute to the effective and efficient operations of the Department.


                              Type of Product                            Number of Products
                              Briefings and Presentations                           27
                              Formal Correspondence                                  4
                              Non-Audit Data Call Products                           2
                              Speaking Engagements/Speeches                          1


    Examples of Other Work Products completed during this reporting period include:
    ■ A briefing by the Inspector General for Representative John Olver, House Appropriations Subcommittee on
    Transportation, on the OIG’s oversight of life cycle costs for the Standard Terminal Automation Replacement System,
    which will supply new controller displays and related computer equipment for FAA’s terminal facilities.
    ■ A briefing by the Acting Principle Assistant Inspector General for Auditing and Evaluation and the Deputy Assistant
    Inspector General for Surface and Maritime Programs for staff of the Senate and House Appropriations Committees on
    the OIG’s oversight of the ongoing Central Artery/Tunnel safety reviews.



    60               Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM     Page 61




       ■ A briefing by staff of the Office of Competition and Economic Analysis for Chairman Don Young, Representative John
       Mica, and staff of the House Transportation and Infrastructure Committee on the OIG’s review of Amtrak’s manage-
       ment of outside legal services related to the Northeast High Speed Rail Improvement Project.
       ■ A formal correspondence from the Acting Inspector General to Representative Michael Capuano, House
       Transportation and Infrastructure Committee, on OIG’s oversight of the comprehensive safety review of the Central
       Artery/Tunnel.
       ■ A formal correspondence from the Assistant Inspector General for Surface and Maritime Programs to the
       Massachusetts Congressional Delegation on OIG’s observations of Phases 1, 2, and 3 of the reopening of the Central
       Artery/Tunnel.
       ■ A presentation for the 2006 Midwest States Highway-Rail Safety Meeting on the findings and recommendations of
       OIG Report No. MH-2006-016 “Audit of Oversight of Highway-Rail Grade Crossing Accident Reporting,
       Investigations, and Safety Regulations.” The report found that greater attention is needed in the areas of reporting and
       investigating grade crossing collisions, and strengthening enforcement when an FRA inspector cites a railroad for a safe-
       ty defect.




       Office of Inspector General Congressional Testimonies
       April 1–September 30, 2006
       Control No.       Date     Subject                                                 Before


       CC-2006-039    04/27/06    Pipeline Safety: Progress and Remaining Challenges      Committee on Energy and Commerce
                                                                                          Subcommittee on Energy and Air Quality
                                                                                          U.S. House of Representatives

       CC-2006-044    05/04/06    Household Goods Moving Fraud                            Committee on Commerce, Science, and Transportation
                                                                                          Subcommittee on Surface Transportation and
                                                                                          Merchant Marine
                                                                                          U.S. Senate

       CC-2006-031    06/21/06	   Observations on Current and Future Efforts to           Committee on Transportation and Infrastructure
                                  Modernize the National Airspace System                  Subcommittee on Aviation
                                                                                          U.S. House of Representatives

       CC-2006-056    07/13/06	   Lower Manhattan Reconstruction: Lessons Learned         Committee on Homeland Security
                                  from Large Transportation Projects                      Subcommittee on Management, Integration, and Oversight
                                                                                          U.S. House of Representatives

       CC-2006-065    07/25/06	   Perspectives on the Progress and Actions Needed to      Committee on Commerce, Science, and Transportation
                                  Address the Next Generation Air Transportation System   Subcommittee on Aviation
                                                                                          U. S. Senate

       CC-2006-074    09/20/06    Observations on FAA’s Oversight of Aviation Safety	     Committee on Transportation and Infrastructure
                                                                                          Subcommittee on Aviation
                                                                                          U.S. House of Representatives




                                                                                               c h a r t s      &   ta b l e s               61
FINAL SAR 12-21-06.qxd          1/10/2007      10:19 AM    Page 62




    Status of Unresolved Recommendations Over Six Months Old

                                         Cited in Semiannual Report for April 1, 2000–September 30, 2000

    Contract Towers: Observations on FAA’s                     AV-2000-079   04/12/00   Awaiting additional information from FAA
    Study of Expanding the Program

                                          Cited in Semiannual Report for October 1, 2001–March 31, 2002

    Acquisition of the Weather and Radar Processor             AV-2002-084   02/28/02   Working with FAA to resolve open issues

                                         Cited in Semiannual Report for April 1, 2003–September 30, 2003

    Status Report on FAA’s Operation Evolution Plan            AV-2003-048   07/23/03   Working with FAA to resolve open issues

    FAA Needs to Reevaluate STARS Costs and                    AV-2003-058   09/09/03   Working with FAA to resolve open issues
    Consider Other Alternatives

                                          Cited in Semiannual Report for October 1, 2003–March 31, 2004

    Chambersburg Transit Authority                             QC-2004-019   01/20/04   FTA working with Grantee to resolve open issues 


    Quality Control Review of Audited Financial                QC-2004-029   01/23/04   Working with FHWA to resolve open issues

    Statements for Fiscal Years 2003 and 2002,

    Highway Trust Fund


    Inactive Obligations                                       FI-2004-039   03/31/04   Working with FHWA to resolve open issues


                                         Cited in Semiannual Report for April 1, 2004–September 30, 2004

    Highway-Rail Grade Crossing Safety Program                MH-2004-065    06/16/04   Working with FHWA, FRA, and FTA to resolve open issues

                                          Cited in Semiannual Report for October 1, 2004–March 31, 2005

    2003 Status Assessment of Cost Accounting                  FI-2005-010   11/17/04   Working with FAA to resolve open issues
    System and Practices

    Managing Risk in the Federal-Aid Highway Program          MH-2005-012    11/19/04   Working with FHWA to resolve open issues

    Terminal Modernization: FAA Needs to Address its           AV-2005-016   11/23/04   Working with FAA to resolve open issues
    Small, Medium, and Large Sites Based on Cost,
    Time, and Capability

    Government of the United States Virgin Islands             QC-2005-020   12/14/04   FHWA working with Grantee to resolve open issues

    Puerto Rico Highway Transportation Authority               QC-2005-039   01/04/05   FHWA and FTA working with Grantee to resolve open issues

    Inactive Obligations                                       FI-2005-044   01/31/05   Working with FAA to resolve open issues

    62                     Semiannual Report to Congress
FINAL SAR 12-21-06.qxd        1/10/2007     10:19 AM      Page 63




       FHWA Needs to Capture Basic Aggregate Cost and              MH-2005-046   02/15/05   Working with FHWA to resolve open issues
       Schedule Data To Improve its Oversight of
       Federal-Aid Funds

       Greater Cleveland Regional Transit Authority                QC-2005-053   03/15/05   FTA working with Grantee to resolve open issues

       Office of the Chief Information Officer’s Budget            FI-2005-055   03/31/05   Working with OST to resolve open issues

                                         Cited in Semiannual Report for April 1, 2005–September 30, 2005

       Walker River Paiute Tribe                                   QC-2005-056   05/12/05   FHWA working with Grantee to resolve open issues

       Status of FAA’s Major Acquisitions:                         AV-2005-061   05/26/05   Working with FAA to resolve open issues
       Cost Growth and Schedule Delays Continue to
       Stall Air Traffic Modernization

       Safety Oversight of an Air Carrier Industry in Transition   AV-2005-062   06/03/05   Working with FAA to resolve open issues

       FAA’s En Route Modernization Program is on Schedule         AV-2005-066   06/29/05   Working with FAA to resolve open issues
       But Steps Can Be Taken to Reduce Future Risks

       Chicago’s O’Hare Modernization Plan                         AV-2005-067   07/21/05   Working with FAA to resolve open issues

       Analysis of Cost Savings on Amtrak’s                        CR-2005-068   07/22/05   Working with FRA to resolve open issues
       Long-Distance Services

                                         Cited in Semiannual Report for October 1, 2005–March 31, 2006

       Central Puget Sound Regional Transit Authority              QC-2006-004   11/02/05   FTA working with Grantee to resolve open issues

       Highway-Rail Grade Crossing Inspections,                    MH-2006-016   11/28/05   Working with FRA to resolve open issues
       Accident Reporting, and Investigations

       Central Puget Regional Transit Authority                    QC-2006-020   12/07/05   FTA working with Grantee to resolve open issues

       Followup Audit Review of Air Traffic Controller Training    AV-2006-021   12/07/05   Working with FAA to resolve open issues

       Sunset Empire Transportation District                       QC-2006-023   12/07/05   FTA working with Grantee to resolve open issues

       Chicago Transit Authority                                   QC-2006-026   12/07/05   FTA working with Grantee to resolve open issues

       Air Carriers Use of Non-Certificated Repair Facilities      AV-2006-031   12/15/05   Working with FAA to resolve open issues

       Greenville Transit Authority                                QC-2006-034   02/02/06   FTA working with Grantee to resolve open issues

       Gulfport-Biloxi Regional Airport Authority                  QC-2006-042   03/09/06   FAA working with Grantee to resolve open issues

       Safety of Highway Bridges                                   MH-2006-043   03/21/06   Working with FHWA to resolve open issues

                                                                                                    C h a r t s      &    Ta b l e s          63
FINAL SAR 12-21-06.qxd          1/10/2007       10:19 AM         Page 64




     Application of Audit Project Hours by Operating Administration

     April 1–September 30, 2006
                                                                                                                               NTSB 2%
                                                                       RITA 1%                                                                                 FMCSA 2%
                                                                                                                                                               FRA 2%
    Notes:
                                                                                                                                                               PHSMA 2%
        Resources shown for OST include time spent perform-
    ing audits of the DOT Consolidated Financial Statements                                                                                                    NHTSA 5%
    (which includes all Operating Administrations), Follow-up          FAA 38%
    on Airline Customer Service Commitment, and DOT’s
                                                                                                                                                               FTA 8%
    Information Security Program.
        Resources shown for FRA include time spent perform-
    ing audits of the National Railroad Passenger Corporation.
       There were no resources expended on the Maritime
    Administration, St. Lawrence Seaway Development                                                                                                            OST 18%
    Corporation, and Surface Transportation Board during the
    reporting period.




                                                                      FHWA 22%




    Required Statements:
       The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting period, departmental management significantly revised
    management decisions stemming from an audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period, departmental man-
    agement did not report any significant revisions to management decisions.

       The Act also requires descriptions of any significant decisions that departmental management made regarding an audit with which OIG disagrees. When the
    reporting period closed, there were no such significant decisions with which OIG disagreed.




    64                    Semiannual Report to Congress
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 65




                      mission,

                   organization,

                    & contacts


      T
                he Office of Inspector General for the Department of Transportation
                was created by Congress through the Inspector General Act of 1978
                (Public Law 95–452). The act sets several goals for OIG:

       ■ To conduct or supervise objective audits and investigations of DOT’s pro-
         grams and operations;

       ■ To promote economy, effectiveness, and efficiency within DOT;

       ■ To prevent and detect fraud, waste, and abuse in the Department’s pro-
         grams;

       ■ To review existing and proposed laws or regulations affecting the
         Department and make recommendations about them;

       ■ To keep the Secretary of Transportation and Congress fully informed about
         problems in departmental programs and operations.

          OIG is divided into two major
       units and four support units. The
                                                 OIG FY 2006 Actual Obligations
       major units are the Office of the         Total: $68,428,372
       Principal Assistant Inspector General
                                                                                                              Advisory and Assistance Contracts
                                                               Working Capital Fund
       for Auditing and Evaluation and the                             $2,407,125
                                                                                                                                     $512,233
       Office of Assistant Inspector General                    Travel $2,748,372
       for Investigations. Each has head-
                                                           Rent to GSA $4,292,827
       quarters staff and field staff. The
       support units are the Office of
       Legal, Legislative and External
       Affairs; the Office of Human                              Other $9,076,335
       Resources; the Office of Financial,
       Administrative and Information
       Technology Management; and the           Personnel Compensation and Benefits
       Office of Quality Assurance                                   $49,391,480

       Reviews/Internal Affairs.




                                                      M i s s i o n ,         O r g a n i z at i o n   &   C o n ta c t s                  65
  66
                                                                                               Inspector General
                                                                                                                                                                                 FINAL SAR 12-21-06.qxd




                                                                                           Deputy Inspector General
                                                                                                                                                                                 1/10/2007




Semiannual Report to Congress
                                                                                                                                                                                 10:19 AM




                                                           Assistant IG for
                                Assistant IG for                                            Principal Assistant IG for            Quality Assurance Reviews & Internal Affairs
                                                         Legal, Legislative, &
                                 Investigations                                              Auditing & Evaluation
                                                           External Affairs
                                                                                                                                               Human Resources
                                                                                                                                                                                 Page 66




                                                                                                                                          Financial, Administrative, &
                                                                                                                                     Information Technology Management




                                                    Assistant IG for             Assistant IG for              Assistant IG for         Assistant IG for
                                                   Aviation & Special       Financial and Information        Surface & Maritime      Competition & Economic
                                                    Program Audits              Technology Audits                 Programs                  Analysis


                                                      Deputy AIG for                 Deputy AIG for            Deputy AIG for
                                                    Aviation & Special           Financial Management        Surface & Maritime
                                                     Program Audits                      Audits                   Programs
FINAL SAR 12-21-06.qxd              1/10/2007           10:19 AM         Page 67




                                          contacts

      Inspector General
      Calvin L. Scovel III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

      Deputy Inspector General
      Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767
      Principal Assistant Inspector General for Auditing and Evaluation
      Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1992
      Assistant Inspector General for Investigations
      Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967
      Executive Director for Washington Investigative Operations
      Rick Beitel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1972
      Assistant Inspector General for Legal, Legislative, and External Affairs
      Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751
      Assistant Inspector General for Aviation and Special Program Audits
      David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500
      Deputy Assistant Inspector General for Aviation and Special Program Audits
      Robin K. Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420
      Assistant Inspector General for Financial and Information Technology Audits
      Rebecca C. Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

      Deputy Assistant Inspector General for Financial Management Audits
      Mark Zabarsky . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2001
      Assistant Inspector General for Surface and Maritime Programs
      Kurt Hyde . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6238
      Deputy Assistant Inspector General for Surface and Maritime Programs
      Rebecca Batts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 493-0331

      Assistant Inspector General for Competition and Economic Analysis
      David Tornquist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970
      Chief Counsel
      Thomas Lehrich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2923
      Communications Director
      David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

      Director for Audit Planning, Training, and Technical Support
      Michelle C. Hill . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0477
      Director of Human Resources                                                                                                              Hotline to report fraud, waste, and abuse:
      Toby Burt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1440
                                                                                                                                                   phone:     800–424–9071
      Director of Financial, Administrative, and Information Technology Management                                                                    fax:    540-373-2090
      Jacquelyn R. Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495                e–mail:     hotline@oig.dot.gov
      Director of Quality Assurance Reviews and Internal Affairs                                                                              OIG website:    http://www.oig.dot.gov
      Richard Kaplan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1504


                                                                                 M i s s i o n ,              O r g a n i z at i o n                 &       C o n ta c t s            67
FINAL SAR 12-21-06.qxd   1/10/2007     10:19 AM     Page 68




    68              Semiannual Report to Congress
FINAL SAR 12-21-06.qxd                        1/10/2007                 10:19 AM                Page 69




                                                                                abbreviations

       AF-OSI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Force Office of Special Investigations                      GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration
       AICPA . . . . . . . . . . . . . . . . . . . . . . . . . .American Institute of Certified Public Accountants                           HAZMAT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Hazardous Material
       AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Assistant Inspector General             HTF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Highway Trust Fund
       AIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Improvement Program                  IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Inspector General
       AIR-21 . . . . . . . . . . . . . . . . . . .Aviation Investment and Reform Act for the 21st Century                                   IRB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Investment Review Board
       ASDE-X . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Surface Detection Equipment-Model X                               IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service
       ATC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Traffic Control      IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Information Technology
       ATO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Traffic Organization           JPDO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Joint Planning and Development Office
       ATOP . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology and Oceanic Procedures                                MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration
       ATOS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Transportation Oversight System                     MCSIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Motor Carrier Safety Improvement Act
       BATF . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Alcohol, Tobacco, Firearms and Explosives                               MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Memorandum of Understanding
       BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics                  NAFTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .North American Free Trade Agreement
       CDLIS . . . . . . . . . . . . . . . . . . . . . . . . . .Commercial Driver’s License Information System                               NAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Airspace System
       CDL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commercial Driver’s License                  NCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Naval Criminal Investigative Service
       CFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Financial Officer          NDR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Driver Register
       CFR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Code of Federal Regulations                NHTSA . . . . . . . . . . . . . . . . . . . . . . . . . . .National Highway Traffic Safety Administration
       CID . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Criminal Investigations Division               NTSB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Transportation Safety Board
       CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Information Officer            OA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Operating Administration
       CPDLC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Controller-Pilot Data Link Communications                            OCIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Chief Information Officer
       DAIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Deputy Assistant Inspector General                    OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General
       DBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Disadvantaged Business Enterprise                      OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
       DCAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Contract Audit Agency                     OPM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..Office of Personnel Management
       DCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Criminal Investigative Service                      OSI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Special Investigations
       DHS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Homeland Security                      OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation
       DOJ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Justice              PCIE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .President’s Council on Integrity and Efficiency
       DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation                 PHMSA . . . . . . . . . . . . . . . . . . . .Pipeline and Hazardous Materials Safety Administration
       EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Environmental Protection Agency                    QCR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Quality Control Review
       FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration                RITA . . . . . . . . . . . . . . . . . . . . . . . . .Research and Innovative Technology Administration
       FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation                RSPA . . . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration
       FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration                    SAFETEA-LU . . . . . . . . . . . . . .Safe, Accountable, Flexible, and Efficient Transportation Equity
                                                                                                                                                                                   Act: A Legacy for Users
       FISMA . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Information Security Management Act                                        Act: A Legacy for Users
       FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration                            SAS-70 . . . . . . . . . . . . . . . . . . . . . . . . . . . .Statement on Auditing Standards Number 70
       FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration                SafeStat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System
       FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration               SLSDC . . . . . . . . . . . . . . . . . . . . . . . . . .St. Lawrence Seaway Development Corporation
       FTI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .FAA Telecommunications Infrastructure                      STARS . . . . . . . . . . . . . . . . . . . . . . .Standard Terminal Automation Replacement System
       FY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Fiscal Year   STB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Surface Transportation Board
       GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Accountability Office                   SUP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Suspected Unapproved Parts
       GMRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Management Reform Act                              TEA-21 . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Equity Act for the 21st Century


                                                                                                                                                                                      A b b r e v i at i o n s                                                        69
FINAL SAR 12-21-06.qxd   1/10/2007   10:19 AM   Page 2
U.S. Department of Transportation
        Office of Inspector General
         400 Seventh Street, S.W.
        Washington, D.C. 20590
